                       EXECUTIVE SUMMARY


     In June 1997, the Federal Communications Commission (FCC)
Office of Inspector General (OIG) established a task order with
TWM Associates, Inc. to conduct a special review of the
Commission’s Collection System. The objective of this review was
to examine the current operational system, examine on-going
modifications, and recommend alternative products. To accomplish
these objectives, the review team conducted interviews with
Commission and contract support staff; evaluated Collection
System documentation and computer code; conducted research on
alternative software solutions; and conducted a benchmarking
effort of other government agencies.

     During our assessment of the current Collection System, the
review team made one-hundred twenty-eight (128) observations in
the areas of: internal controls; audit trails; programming
support; database support; security; banking related matters;
business process improvements; policies and procedures, and
systems development lifecycle issues. Of the one hundred twenty-
eight (128) observations, forty-six (46) are considered high and
medium exposure items that should be addressed immediately.
Significant high exposure observations are as follows:

    •    As part of a data quality review initiated by the
         Wireless Telecommunications Bureau (WTB), the
         collection database was loaded with data from a paradox
         file containing modified data elements. This upload
         was performed without a proper audit trail, including
         evidence supporting individual changes, the deletion of
         individual transactions, and changes made to original
         source documents.

    •    The collections system does not have functionality to
         allow for an audit trail when changes (including data
         element changes, insertions, and deletions) are made to
         the database. An audit trail is a core requirement of
         any financial accounting system.

    •    The collection system does not record and track all
         collection-related transactions. Although some
         collection transaction information has been provided to
         contractor support personnel for loading into the
         collection database, at the time this review was
         completed, this information load had not yet been
         performed.

    •    The Commission has not established separate operating
         environments for system development/maintenance work
         and production. In addition, contract support staff
         responsible for system enhancements and maintenance are
          also responsible for system operation.

     In addition, the review team identified high exposure
observations related to systems development and systems security
issues. A detailed description of all one hundred twenty-eight
(128) observations with accompanying recommendations is included
in Section E of this report.

      During early discussions with management from the Wireless
Telecommunications Bureau (WTB) and the Office of Managing
Director (OMD), the OIG became aware of discussions about a
parallel collection system review effort being considered by
these organizations. After review of the proposed project, the
OIG agreed to establish an additional task under their existing
task order with TWM. The objective of the additional task was to
assess the integrity of the data contained in the Collection
System for completeness, validity, accuracy, and proper
recording. To conduct this portion of the review, the OIG worked
with WTB and OMD staff to develop an appropriate statement of
work to conduct an "Agreed Upon Procedures" review. The OIG then
requested that TWM solicit bids from "Big Six" accounting firms
to establish a subcontract with TWM to perform the procedures.
After discussion with FCC management, Ernst & Young, L.L.P.
(hereafter referred to as "E&Y") was selected to complete the
work.

     On April 24, 1998, E&Y issued a report, entitled "Collection
System Agreed Upon Procedures Report," summarizing the results of
their review. In this report, E&Y identified a multitude of data
quality issues within the Collection Database. Of the one
thousand six-hundred ninety-five (1695) transactions selected for
review, E&Y identified the following conditions:

     •    Source documents were not provided for fifty-two (52)
          of the selected transactions.

     •    Data contained in the collections database differed
          from source documents for seven-hundred eleven (711)
          items representing forty-two percent (711/1695 = 42%)
          of selected transactions.

     •    Of the seven-hundred eleven (711) transactions, thirty-
          three (33) transactions, with a total dollar value of
          approximately $39 million, related to discrepancies in
          monetary amounts or instances where no check or wire
          slip could be located to substantiate the transaction.
          Of these, only one was an auction-related transaction.

     Although E&Y successfully completed the engagement, the
review team experienced significant difficulties. The process of
tying supporting documents to data elements in the collections
database proved to be time consuming as extra analysis was
                                2
required to determine how to tie the items together. The results
of the E&Y data integrity review are discussed in summary in
Section F of this document and the detailed report is included as
Appendix A. As part of the review process, E&Y requested that
FCC management prepare a representation memorandum for the data
integrity portion of the review. In this document, FCC
management made representations regarding the integrity of data
in the collection system, the conduct of the review, the
condition of internal controls, and compliance with laws and
regulations. A copy of the representation letter is included as
Appendix B of this report.

     On December 31, 1997, Chairman Kennard forwarded the FY 1997
Federal Managers' Financial Integrity Act (FMFIA) Annual Report
for the Federal Communications Commission to President Clinton.
In the cover memorandum forwarding that report, the Chairman
recognized a material weakness and material non-conformance
dealing with the "integration of the Commission's billings and
collections system with the central accounting system." The
Chairman went on to state that "(b)ecause of the material non-
conformance of our automated system, we must rely more on manual
than automated processes" but that "we do not have evidence at
this time to believe that the actual management integrity of the
Commission is materially weakened by reliance on manual
processing." It should be noted that the scope of this review
did not included an assessment of the manual controls associated
with the Commission's collection process and that we are not,
therefore, expressing an opinion on the adequacy of those
controls. A copy of the cover memorandum is included as Appendix
E in this report.

     The Commission's Collection System is a financial
application. As a financial application, it should adhere to
strong internal controls, security controls, and management
controls in accordance with OMB circulars and FCC Security
Directives. The one hundred twenty-eight (128) observations and
recommendations contained in this report would indicate the
Collection System is not in compliance with OMB, or the FCC
Security Directives. The Collection System as it exists at the
time of this review, does not evidence all payment transactions,
does not provide clear audit trails for changes made to payment
transactions, does not provide for an adequate level of logical
internal controls, does not reconcile to the General Ledger, and
supports less than thirty percent (30%) of desired functionality.

     Our review further revealed that it would be cost
prohibitive to bring the current in-house developed Collection
System to an acceptable level of functionality in compliance with
OMB and FCC Security Directives. Therefore, it is our opinion
that it is in the best interest of the Commission that a COTS
product should be evaluated, selected, and implemented. The
existing Collection System should be minimally maintained during
the period the COTS product is evaluated, selected, and
                                3
implemented. Once the COTS product is implemented, the existing
Collection System should be phased out.

     On June 9, 1998, the OIG issued a draft report summarizing
the results of this review. On September 8, 1998, the OMD and
WTB issued a joint response to the draft report. In their
response, they indicated concurrence with one hundred twenty-six
(126) and non-concurrence with two (2) of the one hundred twenty-
eight (128) observations and recommendations. In addition, the
response indicated concurrence with the data integrity portion of
the review conducted by E&Y and summarized in Section F of this
report. We have incorporated each OMD/WTB response by
observation into the body of this report. In those cases where
it was appropriate, we have provided comments to the OMD/WTB
response. In addition, we have attached a complete copy of the
response as Appendix C to the report.




                                4
                            ACKNOWLEDGMENT


     The Review team acknowledges the contributions of all that
were involved with the Special Review of the Collection System.
Their efforts were highly professional and contributed to the
successful completion of this effort.

            NAME                       ORGANIZATION/COMPANY

     Mr.   Tom Holleran                      FCC, FOD
     Ms.   Linda King Friedman               FCC, FOD
     Ms.   Regina Dorsey                     FCC, BCB
     Mr.   Linwood Jenkins                   FCC, BCB
     Mr.   John Bopp                         FCC, Wireless
     Mr.   Andy Cox                          FCC, Wireless/OMD
     Ms.   Rachel Kazan                      FCC, Wireless
     Mr.   Bob Snow                          FCC, OMD ITC
     Ms.   Robbie Burroughs                  Computech, Inc.
     Ms.   Cathy Ganneck                     Computech, Inc.
     Mr.   Sam Orlando                       Computech, Inc.




                                  5
                        TABLE OF CONTENTS

EXECUTIVE SUMMARY...............................................1

ACKNOWLEDGMENT..................................................5

A. CONCEPT OF OPERATIONS........................................7

     1.   Introduction                                 7
     2.   Systemic Functions                           8
     3.   Site Location                                8
B. PURPOSE OF THE SPECIAL REVIEW................................8

C. REVIEW TEAM..................................................8

D. SPECIAL REVIEW APPROACH......................................9

     1.   Phase I Collection System Evaluation         9
     2.   Phase II Data Integrity Review               14
E. DETAILED RECOMMENDATIONS PHASE I............................15

F. DETAILED RECOMMENDATIONS PHASE II...........................65

G. OVERALL CONCLUSIONS.........................................66

     Appendix A:    Ernst & Young L.L.P. Report entitled
                    "Collection System Agreed Upon Procedures
                    Report," dated April 24, 1998

     Appendix B:    Representation Letter from FCC Management to
                    Ernst & Young L.L.P.

     Appendix C:    Memorandum, dated September 8, 1998, from the
                    Managing Director and Chief, Wireless
                    Telecommunications Bureau entitled "Responses
                    to the Draft Special Review Report No. 97-21"

     Appendix D:    Selected Citations from Office of Management
                    and Budget (OMB) Circulars and FCC Policies

     Appendix E:    Memorandum, dated December 31, 1997, from
                    Chairman Kennard to President Clinton
                    forwarding the FY 1997 FMFIA Annual Report
                    for the Federal Communications Commission


                                6
A.   CONCEPT OF OPERATIONS

     The FCC was originally established by the Communications Act
of 1934. In February 1996, President Clinton signed into law the
Telecommunications Act of 1996 that contained the first major
overhaul of the telecommunications rules and regulations in over
60 years. The FCC is an independent United States government
agency, directly responsible to Congress. The primary mission of
the FCC is to promote competition among the five lanes of the
information super highway: broadcast, cable, wire, wireless, and
satellite. The FCC has Bureaus that represent each lane, plus
the Compliance and Information Bureau.

     The Commission's Collection System began as a tracking
system on a Honeywell mainframe. The purpose of the system was
to keep record of application and regulatory fees paid into
Commission bank accounts. The manual processing that kept
records of the regulatory fee payments was converted into
computer processes to keep records of the regulatory fees. The
Commission personnel were familiar with the mainframe technology,
the manual processes, and were successful in converting those
manual processes into computer processes.

     On August 10, 1993, the Omnibus Budget Reconciliation Act of
1993 was amended to add a new section 309(j) to the
Communications Act of 1934. This amendment gave the FCC express
authority to employ competitive bidding procedures to distribute
licenses for spectrum services. In order to track the payments
as a result of winning bids, the FCC had to develop systems to
support the auction process. The FCC established a reimbursable
agreement with the Department of Justice (DOJ). Under this
agreement, the FCC contracted with DynCorp to modify the existing
collection system and convert from a mainframe to a client-server
operating environment. After much disappointment, the FCC then
moved to contract with Computech to build the Collection System.
 Since 1994, well over $4 million dollars have been spent on the
development of the Collection System.

1.   Introduction

     a.   Purpose. The purpose    of this special review was to
assess the existing and planned   abilities of the Collection
System to meet FCC requirements   and recommend alternate
commercial-off-the-shelf (COTS)   solutions. The review was
intended to be a quick study of   the Collection System to quickly
provide feedback on areas where   improvements can be made.

     b. Requirements:    The criteria used for this review were
Office of Management and Budget (OMB) Circulars and Commission
policies. These criteria included:

     Office of Management and Budget (OMB) Circular A-130,
     entitled "Management of Federal Information Resources," as
                                7
     revised February 8, 1996.

     Office of Management and Budget (OMB) Circular A-123,
     entitled "Management Accountability and Control," as revised
     June 21, 1995.

     Office of Management and Budget (OMB) Circular A-127,
     entitled "Financial Management Systems," as revised July 23,
     1993.

     Federal Communications Commission (FCC) Directive FCCINST
     1479.1, entitled "FCC Computer Security Program," dated
     November 30, 1995.

2.   Systemic Functions

     The FCC's Collection System was the specific application
focused on during this special review.

3.   Site Location

     Work on this special review was conducted primarily at the
FCC’s headquarters facility located at 1919 M Street in
Washington, D.C. For the purpose of understanding the full
collection cycle, interviews were also held with fee collection
personnel in Gettysburg, Pennsylvania and with Mellon Bank staff
in Pittsburgh, Pennsylvania.
B.   PURPOSE OF THE SPECIAL REVIEW

     The purpose of the special review was to examine the current
operational collection system and assess its ability to meet
requirements; assess on going and planned system
development/modification efforts and determine their effect on
system performance following implementation; and develop
recommended system performance solutions including
identification/assessment of commercially available products. In
addition, following discussions with FCC management, the review
was modified to include an assessment of the integrity of data
contained within the Collection System to ascertain whether
recorded transactions are complete, valid, accurate, properly
classified, properly recorded, and recorded in a timely fashion.
The scope of this special review did not extend to security,
either physical or logical, outside of the Collection System.
Those are separate reviews to be conducted at another time,
outside the scope of this review.
C.   REVIEW TEAM

     The Review Team included representatives from the FCC Office
of Inspector General (OIG) and TWM Associates, Inc. The
following is a list of individuals who participated in the
review.
                                8
     Thomas Bennett,     FCC, OIG                 Team   Member
     Paul Brachfeld,     FCC, OIG                 Team   Member
     Thomas Housman,     TWM Associates,   Inc.   Team   Member
     Keith Meins,        TWM Associates,   Inc.   Team   Member
     Sanjay Shantaram,   TWM Associates,   Inc.   Team   Member
     Thomas Welch,       TWM Associates,   Inc.   Team   Member
     Bruce Wilkins,      TWM Associates,   Inc.   Team   Member
     Lisa Wilkins,       TWM Associates,   Inc.   Team   Member
     Nicole Williams,    TWM Associates,   Inc.   Team   Member
D.   SPECIAL REVIEW APPROACH

     The Special Review Approach was based on a two-phased
approach. Phase I was the evaluation of the Collection System.
Phase II was the data integrity review performed by E&Y.
1.   Phase I Collection System Evaluation

     The following provides an outline of the procedures
performed in order to accomplish the objectives of Phase I of the
Collection System Review. OMB and FCC guidance were used to
assess the Collection System and to develop observations and
recommendations. The procedures performed included a look at the
Collection System Cycle, review of program coding (shell scripts,
stored procedures, etc.), review of the data elements, review of
program documents (i.e., contractor support Statement of Work,
Quality Assurance plans, Project plans, etc.), review of Sybase
security and other pertinent procedures.
OMB Circular Guidance

OMB Circulars A-123, A-127, and A-130 provide guidance to Federal
agencies as to how financial applications should be developed,
implemented, and maintained. Essentially, these Circulars
establish that development of financial applications should
include: Effective internal controls, proper System Development
Life Cycle (SDLC) methodologies and cost/benefit analysis,
movement towards COTS, and maintenance of adequate audit trails
and transactional records to support the general ledger. Several
specific OMB Circular citations were used as guidance in
developing the detailed observations and recommendations during
the evaluation of the Collection System. The specific citations
are included in Appendix D. The detailed recommendations refer
to OMB Guidance as a whole and are not tied to specific
citations. The OMB citations are included in the appendix for
ease of reference.
Procedures Performed

Cycle vs. System. It became evident early in the review that not
all users of the Collection System viewed the application in the
same manner. Most users and personnel interviewed viewed the
                                9
application as just a tracking mechanism. Others viewed the
system as a financial application. Through our discussions it
became apparent that the Collection System entailed more than
just a tracking mechanism and was actually supposed to be a part
of a larger Collection Cycle vs. a Collection System. The
Collection Cycle consists of: gathering banking information,
application of banking transactions at both the accounting sub-
ledgers and general ledgers, collection on past due payments,
analysis of collection activities, bank account transaction
recording in the general ledger, reconciliation of general ledger
accounts to bank statements, and reconciliation of accounts
receivable sub-ledger to the general ledger accounts.

Shell Scripts. Powerbuilder scripts, SQL, and C Programs Review.
Shells Scripts, SQL, Powerbuilder scripts, and C Programs are
used in conjunction with the Sybase Stored Procedures to schedule
batch jobs and perform other programming needs. The scripts and
programs were reviewed to determine completeness,
standardization, and programming quality.

Stored Procedures. The Collection System is built using Sybase
System 11. Sybase System 11 uses Stored Procedures that allow
for business or application processing logic to be placed within
Sybase and be executed on the main computer. The stored
procedures were reviewed to identify and evaluate the programming
standards used and the quality of programming contained within
the stored procedures.

Log files. Logs within the Collection System environment are
used to keep records of programs that are started, completed, and
errors that occur during the process. Logs are only written to
if the program has been programmed to do so. The log files were
reviewed to determine if there was any indication of problems,
significant amounts of stops and restarts, and potential error
trending.

Data Elements. Data dictionaries contain the definitions of all
the data elements used in the database. Data dictionaries
usually contain a description of the field, the format of the
field, and the date last altered. The Data Dictionary was
reviewed on line for complete data elements, professional
language describing the data elements, and for completeness in
the descriptions.

Database Entities. Data entities contain the definitions of all
the data elements used in a given table or entity. Data entity
relationships usually contain a description of the entity, the
fields included in the entity, the primary key or field, and the
date last altered. The Data Entities were reviewed on line for
complete descriptions, professional language, and for
normalization.

Events Lists.   Library Lists, and Database Fill.   The Events List
                                 10
is used as a basis for determining the modules to be created for
the application. The Events List was reviewed to determine the
automation of manual processes and inclusion of user requirements
and functionality. The Library List is the list of all
production source code for the Collection System. The Library
List was reviewed to determine extent of standard naming
conventions and security access. Data Fill consists of the
placing of spaces or zeroes into a data record for further input
into the database at a later point in time. The Data Fills were
reviewed to determine the extent of use of such items.

Narrative Descriptions. The developers of the Collection System
prepare narrative Descriptions. The Narratives describe the
steps and procedures utilized by various user groups to assist
them in the completion of the transactions. The Narratives were
reviewed to determine the completeness and the logical flow of
the narratives made sense to an unfamiliar user.

User Manual. The user manual is usually indicative of how the
user maneuvers through an application. The Team performed a
cursory review of the User Manual to gain an understanding of the
programmed application from a user perspective.

Project Plans and Status Updates. Project plans are typically
documents used to indicate the overall objective of the project,
define the project maintainability, use of security,
expandability, etc. Interviews were conducted and documents were
gathered and evaluated for completeness of content with respect
to a project plan. Status Reports are typically documents used
to indicate the individual tasks being worked on by the
development team and agreed to by the users for whom the
development effort is being performed. Status reports typically
include a list of action items, who is responsible for those
items, the length of time for completing the items, and a source
or mapping to user requirements for items being worked on.
Status reports are usually the result of status meetings, which
are held on a periodic basis. These were reviewed to determine
completeness of content.

Security. To review the security over the Collection System
application, several areas were considered. The first was the
use of the C or Unix scripts. Second, Sybase access control was
reviewed. Third, Collection System application tables access was
reviewed. Fourth, Sybase Stored Procedures (i.e., programs) were
reviewed. There were no reviews performed over the operating
system security or manual controls over spreadsheet applications
or PCs.

User Meetings. Meetings were held with various key personnel
involved in the historical development of the Collection System
or actively involved in the on-going development or operations of
the Collection System. The purpose of these meetings was to
ascertain the development environment, potential functional
                                11
requirements, and to develop an understanding of the development
process used historically and in the present time. Users were
considered to be those in development, database maintenance,
Financial Operations Division (FOD), Billing and Collections
Branch (BCB), Wireless, Information Technology Center (ITC), and
Acquisitions.

Bureau and Office Meetings. Meetings were held with other
Bureaus and Offices within the Commission who use the Collection
System. The purpose of these meetings was to ascertain the
potential functional requirements, and to develop an
understanding of how the department makes use of the information
contained in the Collection System. Bureaus and Offices included
Gettysburg Fee Processing, International, Common Carrier, and the
Office of Engineering and Technology.

Bank and Lockbox Processing. FCC primarily uses Mellon Bank to
receive its monies collected in terms of dollars. First Chicago
Bank is also used to collect monies, primarily for the Fines &
Forfeitures. Mellon Bank transmits banking information in an
AFCC specific layout on a daily basis and then overnights the
payments processed in hardcopy to the FCC. First Chicago does
not transmit electronically, but overnights the payments
processed in hardcopy to the FCC. Bank processing procedures
were discussed with FCC personnel and with Mellon Bank
representatives. The Mellon Bank lockbox operations and file
layouts for bank transmission of bank account activity to FCC
were reviewed. Pricing information and procedures were compared
to other banks providing lockbox processing.

Steering Committee. As part of the Collection System Review, FCC
Management requested that the OIG chair a Collection Systems
Steering Committee comprised of representatives from the
Financial Operations Division (FOD), the Auctions Division of the
Wireless Telecommunications Bureau (WTB), and the Information
Technology Center (ITC). In addition, the Contracting Officers
Technical Representative (COTR) for the existing collection
systems development and maintenance task orders was invited to
participate in steering committee meetings. The Steering
Committee was established in August 1997. The Steering
Committee: prepared a mission statement which was reviewed and
approved by FCC Management; provided the working traits expected
for personnel working on the Collection System; prepared the
Statement of Work for the Big Six Data Integrity Review;
recommended to FCC management the selection of the Big Six firm;
and assisted in Collection System Review status presentations to
FCC management. In addition, the Steering Committee kept abreast
of the status of the Data Integrity Review by E&Y and reviewed
the functionality requirements prepared as part of the Collection
System Review. The Steering Committee also prepared the Position
Description for the Project Manager to be hired for the
Collection System migration to COTS.

                               12
Functional Requirements Analysis. The approach was to establish
a generic model (which could be used in any environment) and then
incorporate the FCC specific requirements into the model. This
was a preliminary review since, presumably, the incoming Project
Manager will perform a full functional requirement analysis.
Interviews with users and documentation they provided were used
as the basis for the FCC requirements or desired functions.
Documentation was then obtained for selected COTS packages. From
the FCC requirements and COTS documentation, the functionality
matrix was built and indicated a 1 if the function was present in
the software (COTS or existing Collection System) or a 0 if the
function was not present in the software. Once the model was
established, the model was reviewed with the members of the
Steering Committee. Weighting of the functional requirements was
based on deemed importance to the users of the Collection System,
which was reviewed with Steering Committee members and adjusted
accordingly. The model was then used to compare the COTS
packages to the existing Collection System for percentage of
functionality incorporated in the packages.

Benchmarking. In order to determine the trend of accounting
software application development within the government agency
environment, it was deemed necessary to talk with other
government agencies. The talks with other government agencies
were to determine what type of software is used for their core
accounting applications. The type of software refers to
Commercial Off-The-Shelf (COTS) or in-house Developed (IHD).
Core accounting applications are deemed as General Ledger,
Budget, Funds Control, Accounts Payable, Accounts Receivable, and
Collections.

COTS Packages. To determine what COTS packages should be used
for the functional requirement analysis, research was conducted
to determine the most complete and current COTS packages out in
the financial marketplace. Five COTS packages were selected that
entailed accounts receivable processes and that market the
Federal Government and are used by other Government Agencies. In
addition, two Treasury Workstation packages were also selected to
be included in the evaluation process since Treasury Workstations
typically perform the front-end processing of a Collection System
process. Vendors for each COTS package were contacted to obtain
details about each product and pricing information. A
preliminary cost analysis was performed based on the available
information. The costs reflect ballpark figures for the purpose
of demonstrating costs of COTS packages relative to the existing
Collection System.

System Development Methodology Analysis. The Team was requested
to review the existing Collection System Developers Quality
Assurance (QA) and System Development Plans. From those plans,
the Developers were queried as to how they adhered to their own
QA and System Development Plans, including milestones and
deliverables.
                                13
2.   Phase II Data Integrity Review

     This phase engaged E&Y as a subcontractor to TWM Associates,
Inc. to assist the FCC in testing certain elements in the
collection database. The testing was part of an effort to gauge
next steps in implementing a new system and assessing the data
included in the existing database. The procedures performed were
outlined in the statement of work, and were further discussed and
refined in subsequent meetings between FCC representatives, FCC
OIG, TWM, and the Collection System Steering Committee.

     The testing requested consisted principally of utilizing
computer-assisted techniques to select a sample of transactions
for testing of information in the database extract provided
against source data.
     For each transaction selected in the sample, E&Y agreed the
data included in the collection file to supporting documentation.
This included tracing transactions to:

     •    Files containing Form 159 remittance documents or
          equivalent;

     •    Spreadsheets used outside of the collection system to
          track up-front auction payments;

     •    Bank statements to agree transactions to wire transfer
          evidence (wire slips);

     •    Auction Installment Payment (AIP) report extracts to
          substantiate Automated Clearinghouse (ACH) evidence;

     •    Refund spreadsheets to agree transactions netting to
          zero; and

     •    Refund extracts from the National Finance Center (NFC)
          and the Federal Financial System (FFS).

     Specific data elements included date payment received, payor
name and address, amount, FCC account number and fee control
number, payment type code, and payment method.

     For certain types of transactions, including wire transfers
between FCC bank accounts, residual payments from successful
auction bidders, and transactions related to the Client Initiated
Payment Program, E&Y agreed a subset of data elements between the
collection database and the supporting documentation. In these
cases, the remaining data elements are not required on the
documentation received. For example in their Agreed-Upon-
Procedures report, E&Y reported that:
                               14
     •    For wire transfers between the lockbox provider and the
          FCC, they agreed the payor name and the amount from the
          wire slip to the collection database.

     •    For residual payments from successful auction bidders,
          they agreed the FCC account code, the Payor name,
          address, and amount from the collection database to the
          appropriate Auction spreadsheet and agreed the
          spreadsheet total to the Lockbox Provider Bank
          Statement.

     •    For the Client Initiated Payment Program, they agreed
          payment name and amount from the Lockbox Providers AIP
          report.

      In addition, E&Y reviewed the document files for those
transactions selected and documented any refund activity noted in
the files provided. E&Y traced the refund activity to two data
files provided by FCC Office of Managing Director:(1) general
ledger accounts payable extracts files including refund activity
for the related period; and (2) a paradox file of all
transactions reloaded into the collection system in April/May
1997.

     Finally, during the review of the collection files, E&Y
identified ninety-two (92) Form 159 FCC Remittance Advise
documents identifying amounts greater than $100,000 that were not
directly traceable to the sample. Additional procedures were
identified and performed to determine if the amounts represented
valid transactions that should be included in the collection
database. These procedures included:

     •    Tracing those items representing Auction upfront
          payments and refunds to the appropriate Auction
          Spreadsheet,

     •    Agreeing transactions to supporting documentation that
          a name change had taken place and the item, under the
          new name, was represented within the sample, and

     •    Agreeing the summarization of two (2) Form 159s to a
          summarized transaction within the sample.
E.   DETAILED RECOMMENDATIONS PHASE I

     Following are the detailed observations noted during Phase
I. The observations are grouped by classification. The
classifications assigned were:

     A    Audit trail controls issues.
                               15
     B    Banking related matters to improve efficiency or costs.
     C    Contracting matters.
     D    Database issues.
     I    Internal control issues affecting segregation of duties
          and compromise of controls.
     P    Programming related matters.
     PI   Process improvement matters.
     PO   Policy and procedures issues.
     S    Security issues.
     SDLC Life Cycle development issues.

     If an observation represents more than one classification,
it is shown in the first occurrence of the classification only.
Where applicable, references to other classification categories
are noted in parenthesis at the end of the observation.

     The individual observations and recommendations have also
been assigned an exposure rating of High, Medium, or Low. The
rating of High is assigned when it is perceived the segregation
of duties is compromised and/or the security risk is high enough
to possibly cause on-going operational concerns or business
disruptions. The rating of Medium is assigned when it is
perceived the segregation of duties may be compromised and/or
security risk is medium to cause on-going operational annoyances,
but would not cause a business disruption in the event of an
occurrence. The rating of Low is assigned when it is perceived
the segregation of duties could be compromised and/or security
risk is low to cause on-going operational efficiency issues, but
does not cause a business disruption in the event of an
occurrence. The category of each observation (i.e., high,
medium, or low) is identified at the end of each observation
enclosed in brackets.

Audit Trail Control Issues

Audit trail controls determine the ability of the information
being processed to be traceable throughout the cycle of the data
used. From the introduction of the data through the recording of
the data to the reporting of the data, controls are present to
ensure the data retains its' integrity. In addition, processes
(manual or computerized) which controls those data inputs,
processing and outputs also affect the audit trail controls. The
lack of definitive and effective audit trail controls may result
in erroneous data, which may be contained in the database, other
applications which obtain data, reports to management, and may
result in decisions based on faulty or incorrect assumptions
based on the data provided.

1.   Observation: As part of a data quality review, the
     Collection Database was loaded with data from a Paradox
     file. The Paradox file was not a direct feed from Mellon
     Bank. Though Mellon Bank information may have been used as

                               16
     the basis for the Paradox file, many of the individual data
     elements (i.e., transaction date, address, payor, amount,
     payment type code, etc.) were changed. The Paradox file was
     loaded into the Collection Database without: a proper audit
     trail, evidence supporting the individual changes, evidence
     supporting the deletion of transactions which netted to zero
     (i.e., upfront payments made and then refunded) or changes
     made to the source documents originally supporting the
     transactions. The Paradox file information also did not
     contain references back to the original transactions being
     adjusted. (I, P, S) [High]

     Recommendation: Do not allow updates to the Collection
     Database without the proper supporting records and audit
     trails.

     OMD/WTB Response: Concur, all updates to the system shall be
     supported by proper source documents and provide complete
     audit trails.

2.   Observation: The Collection System does not have the
     functionality in place to allow for the proper traceability
     of changes to a transaction (i.e., change of name, address,
     amount, etc.) as required for an accounting system under OMB
     guidance. (P) [High]

     Recommendation: Whether the Collection System is enhanced or
     another system is put in its place, ensure there is proper
     functionality and audit trails for making changes, updates,
     insertions, and deletions to the transactional database.

     OMD/WTB Response: Concur, efforts are underway to ensure
     that the current system properly provide the necessary
     functionality and audit trails for making changes, updates,
     insertions, and deletions to the transactional database.
     Required coding changes to ensure that the current system
     corrects this finding are due to be placed into production
     on December 31, 1998.

     A mandatory requirement will be included in the RAMIS RFP to
     assure that audit trails are maintained for all transactions
     including changes to table entries.   (Second Quarter FY
     1999)

3.   Observation: Not all collection related transactions are
     loaded and recorded in the Collection Database (e.g.,
     Auction 11 refunds, upfront payments, unsupported
     transactions, installment payments, credit card transactions
     in 1995, or AIPs). While some of the information may have
     been provided to contractor support to load into the
     database, the programming to provide the load did not occur.
      (D, I, P) [High]
                               17
     Recommendation: Revise procedures to ensure all transactions
     are properly recorded in the Collection System.

     OMD/WTB Response: Concur, procedures shall be revised to
     ensure that all transactions are properly recorded in the
     Collection System. Revision to procedures due last quarter
     FY 1998. All transactions will be recorded in RAMIS.

4.   Observation: Edit controls to ensure the transmissions
     received from Mellon Bank are valid, complete, accurate, and
     for the proper date do not seem to be in place and/or
     functioning properly. (B, I) [Medium]

     Recommendation: Implement the proper automated edit controls
     to ensure file transmissions received are valid (summary and
     detail transaction records), complete (using the 01 and 99
     BAI record identifiers in the file transmission), accurate
     (file count and testing through the adding of details and
     comparing to the summary record), and for the proper date
     (date requested is the date received).

     OMD/WTB Response: Concur, the lockbox nightly load process
     has been modified to include proper automated edit controls
     to ensure file transmissions received are valid (summary and
     detail transaction records), complete (using the 01 and 99
     BAI record identifiers in the file transmission), accurate
     (file count and testing through the adding of details and
     comparing to the summary record), and for the proper date
     (date requested is the date received). Due to be placed
     into production September 30, 1998.

     The lock box service bank file transmission will need to be
     reevaluated and changed depending on the COTS package
     selected as the basis for the new system (RAMIS).
     Recommendation #4 will be incorporated in the design of the
     file transmission. (Implementation FY 2000)

5.   Observation: When requesting a refund through the Collection
     System, the person inputting the request can change the
     payor name. (I) [Medium]

     Recommendation: Alter   the system to disallow the changing of
     the payor name unless   there is manager approval for such a
     change and the change   is documented in the Collection system
     along with the reason   for the change.

     OMD/WTB Response: Concur, the Collection system will be
     modified to require manager approval for payor name changes
     by adjusting permission grants. Review of the current
     system design will be performed in September 1998, with
     required modifications due first quarter 1999. RAMIS
                                 18
     implementation will include Recommendation 5.   (RAMIS
     implementation FY 2000).

6.   Observation: Wire transfers into FCC bank accounts are not
     always accompanied by Form 159s. In addition, Mellon Bank
     does not always prepare the Form 159s for those transfers.
     However, only the information keyed in Mellon Bank is
     transmitted to FCC for the Collection System data
     population. Use of the specialized Form 159 keying
     procedures and transmission of information increases the
     chances for information to be lost or mis-keyed, causing
     improper recording or untimely recording of payment
     information. (B, PI, SDLC) [Low]

     Recommendation: For any type of electronic payment or
     non-check payment, Mellon Bank should not key in the
     information. This information should be transmitted
     electronically to the Commission through standard BAI
     formats, not through a specialized FCC format (i.e., Form
     159).

     OMD/WTB Response: Concur, this recommendation shall be
     explored during the design of RAMIS. The lock box service
     bank file transmission will need to be reevaluated and
     changed depending on the package selected as the basis for
     the new system. Recommendation #6 will be incorporated in
     the design of the file transmission. (Implementation FY
     2000)

7.   Observation: Refunds of upfront payments typically exceed $1
     million. Due to Treasury limitations, BCB breaks refunds in
     excess of that amount into smaller payments. Without
     permission from Treasury, this is an internal control that
     is compromised. (PI) [Low]

     Recommendation: Work with Treasury to adjust the limitations
     in light of the business need for refunding auction payments
     in excess of $1 million.

     OMD/WTB Response: Non-Concur, this recommendation has been
     overcome by events. In February 1996 Congress gave the FCC
     authority to establish an interest bearing account for
     deposit of incoming auction upfront money. Since that time,
     all upfront refunds have been disbursed from the account via
     Mellon's Telecash System(). The system allows the FCC to
     process wire transfers without dollar limitation.

     In addition, there will be a mandatory requirement that the
     new system accommodate $999B dollar values. Treasury
     guidelines concerning the maximum value of refund
     transactions shall be addressed through the FFS interface.
     The use of Mellon Telecash wire transfers significantly
                               19
      mitigates the impact of this issue on the Collections
      System.

8.    Observation: Credit card transactions were not all
      authorized prior to granting the license or purchased
      service. (I) [High]

      Recommendation: Ensure strict authorization procedures are
      documented for manual and automated processing of credit
      card transactions.

      OMD/WTB Response: Concur, OMD/WTB addressed this issue over
      a year ago. Only authorized credit card transactions are
      passed to the Commission via the nightly load. All non-
      authorized credit card transactions are returned to the
      applicant within 24 hours. The FCC is coordinating its
      automated credit card program with the U.S. Treasury and is
      in compliance with all Treasury rules, regulations, and
      policies concerning the automated use of credit cards by a
      federal agency.

9.    Observation: Payments made into Mellon Bank without
      sufficient information to identify the payor results in
      undocumented manual procedures that are performed by a
      programmer. (C, I) [High]

      Recommendation: Document the processes for matching payments
      to the information received from the bank.

      OMD/WTB Response: Concur, this un-documented procedure is no
      longer being performed. This observation has already been
      corrected and the process replaced by a more efficient
      procedure. On March 16, 1998, the FCC implemented new
      procedures for reporting the customer initiated payments to
      the Birmingham site.

      The transmission file which has now been superseded did not
      have sufficient information to allow for recording and
      posting the payments. The new transmission file which
      contains sufficient information for posting the payments,
      thus eliminating the need for programmer intervention.

      There will be a mandatory requirement in the new system that
      corrections to batch files be made on-line with adequate
      security. Use of database reference table edits will reduce
      the need for intervention and manual correction.

10.   Observation: Sybase contractors are responsible for placing
      production code into the production environment. The
      process for ensuring the production code program changes are
      authorized, tested, and approved are informal. (D, I, P)
      [High]
                                20
      Recommendation: Implement formal change control procedures
      to ensure all program changes are authorized, tested, and
      approved, prior to placing the code into the production
      environment.

      OMD/WTB Response: Concur, this recommendation has already
      been placed into practice. All program changes are
      authorized, tested, and approved, prior to placing the code
      into the production environment. The Collections team has
      separated development, test, and production into separate
      regions. Test plans, and approval procedures are in place
      to control any future software releases into production.

      The RAMIS Project manager has proposed that separate regions
      be dedicated to the new system for training, interface
      development, conversion and acceptance/system testing,
      production staging and production.

      The COTS contractor will be required to maintain full
      configuration management under the terms of the contract
      during system modification, data conversion and roll out.
      RAMIS maintenance procedures will incorporate Recommendation
      # 10 as a part of the maintenance contract or will need to
      be absorbed by FCC using commercial configuration management
      software.

11.   Observation: There are no formal security administration
      procedures at the database level (though some user level
      controls have been implemented at the application level).
      There are five-hundred fifty-seven (557) active userids on
      the Collection System, and of those, four-hundred seventy-
      three (473) have no user information supporting the userids,
      or authorization for those userids to exist on the
      Collection System. (I, S) [High]

      Recommendation: Implement formal security administration
      procedures to ensure only authorized users have access to
      necessary information, database elements, and stored
      procedures. Implement a periodic review to ensure only the
      necessary number of users have access to the Collection
      System and that they are properly authorized for such access
      to the Collection System.

      OMD/WTB Response: Concur, a review of the Sybase and
      application security administration is underway.
      Furthermore periodic reviews shall be conducted to ensure
      that only necessary users have access to the Collection
      System. The number of system users shall be determined by
      the needs of the users. The review which is currently
      underway will be concluded by July 31, 1998.

                                21
      Security issues will be addressed as a part of the
      implementation phase of the RAMIS project. Both operating
      system security and application security will be documented
      and implemented. (Implementation FY 2000)

12.   Observation: There are no separate testing and production
      environments. Without a proper testing and user acceptance
      environment, daily operations can become unnecessarily
      affected by programming bugs and other unknowns that may
      have been corrected in a test environment (as evidenced
      during the six week down time of the Collection System).
      (D, I) [High]

      Recommendation: Implement a formal testing and user
      acceptance environment separate from the live production
      environment for the Collection System.

      OMD/WTB Response: Concur, OMD/WTB has already responded to
      this problem by ensuring that a formal testing and user
      acceptance environment exist separate from the live
      production environment of the Collection System. This
      change was made several months ago.

      The RAMIS Project Manager has proposed that separate regions
      be dedicated to the new system for training, interface
      development, conversion and acceptance/system testing,
      production staging and production.

13.   Observation: Due to the Collection System development effort
      longevity, daily Billing and Collections Bureau (BCB)
      operations make use of spreadsheets to track incoming
      monies, at least for the upfront auction payments,
      withdrawal payments, refunds, and cash balances. (I)
      [Medium]

      Recommendation: During the testing and implementation of the
      full Collection System (i.e. existing or future COTS),
      ensure proper access controls and segregation of duties are
      in place for the existing manual procedures surrounding the
      maintenance of the spreadsheet used for tracking bank
      transactions.

      OMD/WTB Response: Concur, over the past year proper access
      controls and segregation of duties were put in place for the
      procedures used to tracking bank transactions. Missed
      schedules and lags in the development effort forced the
      Billings and Collections Branch (BCB) to create tools
      (spreadsheets, etc) for recording, tracking, and reporting
      transactions. Further, a task on the RAMIS project plan is
      to evaluate current processes and procedure to identify
      those that should be re-engineered to assure maximum
      functionality from the selected COTS core package.
                                22
      (3rd Quarter FY 1999)

14.   Observation: The audit log is not used in the Sybase
      database for the Collection System. (D, I) [High]

      Recommendation: Turn the audit log on for sensitive
      procedures, sensitive accesses, and sensitive write
      commands. Implement audit log review procedures to ensure
      logged events are authorized and not indicative of
      unauthorized activities. Audit log events also ensure
      accountability of transactional changes.

      OMD/WTB Response: Concur. The use of the system-level audit
      capability has several technical issues, including space and
      performance considerations, that must be researched and
      resolved before steps could be taken toward implementation
      of system-level auditing. Action will be taken to resolve
      these issues and activate system-level auditing by September
      30, 1998.

15.   Observation: The Shell scripts used to load Mellon bank data
      into the Collection Database did not contain the necessary
      edit checks to ensure valid date and file completeness. File
      completeness checks usually include a test to add the detail
      transaction records together to determine if they match the
      contents contained in the bank transmitted balance records.
      However, if standard BAI Code file layouts are not used for
      the bank transmission of information, this becomes much more
      difficult. (B, D) [Medium]

      Recommendation: Adjust the scripts to include checks to
      ensure the transaction data included in the Mellon bank
      transmission is for the expected transaction date. In
      addition, file completeness edits should be included
      (counting the number of headers and trailers does not ensure
      file completeness for bank transaction transmissions).

      OMD/WTB Response: Concur, The Collections Team will adjust
      the nightly load Unix and SQL scripts to ensure that
      necessary edits are in place to check inclusiveness of
      transaction data for the expected transaction date and file
      completeness. These scripts, which identify specific steps
      to be taken in a specific order, process the data files sent
      from Mellon on a nightly basis. Review necessary
      adjustments - due September 30, 1998.

      The lockbox service bank file transmission will need to be
      reevaluated and changed depending on the package selected as
      the basis for the new system. Recommendation #15 will be
      incorporated in the design of the file transmission.
      (Implementation FY 2000)

                                23
16.   Observation: Changes to modules are not currently under a
      formal configuration management process (CM). It is left up
      to the programmer. (I, P) [Medium]

      Recommendation: Create a Configuration Management group that
      manages the configuration. This group should not include
      programmers or managers of programmers.

      OMD/WTB Response: Concur, Configuration Management is
      informal and should be made more formal. However,
      Configuration Management should be controlled by the Project
      Manager and the COTR.

      The ITC accepts this recommendation. The FCC is pursuing
      improvement on several paths. The first is by defining and
      implementing an FCC SDLC. The second is through the ITC
      providing increased support to programming task staff for
      the management of software configuration changes/upgrades
      etc. In support of this effort ITC recently purchased the
      CAST Workbench. PVCS, PowerSite and other products that can
      support this effort are under evaluation. Thirdly, ITC is
      establishing a more defined and controlled process through
      which releases/version are moved from development to
      test/acceptance and implementation under the control of FCC
      staff.

      The COTS contractor, selected for RAMIS, will be required to
      maintain full configuration management under the terms of
      the contract during system modification, data conversion and
      roll out. RAMIS maintenance procedures will incorporate
      Recommendation # 10 and 16 as a part of the maintenance
      contract or will need to be absorbed by FCC (probably ITC
      contractors) using commercial configuration management
      software.

      OIG Comment: The intent of this recommendation was to ensure
      that programmers are not responsible for configuration
      management. We were not attempting in our recommendation to
      dictate the structure of the configuration management group
      except to recommend that it not be comprised of programmers
      or managers with programming responsibilities. A project
      configuration management group comprised of the COTR and
      project manager is entirely appropriate as long as the
      project manager does not also have programming
      responsibilities.

17.   Observation: The programming standards identified are
      incomplete for a development program. The compliance to
      existing standards during the review process could not be
      verified. (I, P) [Medium]

      Recommendation: Develop programming standards that all
                                24
      programmers must follow and institute a formal review
      process that includes the verification that the developed
      software conforms to the programming standards.

      OMD/WTB Response: Concur. Changes in ITC contracts for
      Sybase, PowerBuilder and web support staff now being made
      will permit these contractors to work with FCC staff to
      develop programming standards for the basic languages in use
      at the FCC. These standards will be promulgated and their
      use by Programming Services Contract (PSC) staff verified.

      The RAMIS Project manager will work with ITC to assure that
      all standards adopted by the FCC are adhered to during the
      project.

18.   Observation: Unit (development or enhancements) folders that
      were provided by contract identified were not organized and
      did not contain sufficient information for evaluation. (I,
      P) [Medium]

      Recommendation: Develop a standard for what is required in a
      unit folder. Then initiate a review of all Unit folders for
      compliance with the standard.

      OMD/WTB Response: Concur, the RAMIS Project manager will
      work with ITC to assure that all standards adopted by the
      FCC are adhered to during the project.

19.   Observation: Upfront payments prior to an auction and
      upfront payments refunded, after the auction is concluded,
      are not recorded in the general ledger. (I) [Medium]

      Recommendation: All transactions should be included in the
      general ledger, even if they are custodial in nature.

      OMD/WTB Response: Concur, as part of the development of
      RAMIS all transactions shall be included in the general
      ledger, even those identified as custodial in nature. The
      transaction shall be included in the new revenue system, and
      be reported to the appropriate standard general ledger (SGL)
      account.

20.   Observation: Upfront payment activities are maintained on an
      Excel Spreadsheet in BCB. The spreadsheet contains no
      references to dates payments were posted to the bank
      accounts. Manual controls over the integrity of the
      spreadsheet have not been reviewed. (I) [Medium]

      Recommendation: If the spreadsheet is to be used as a source
      of management information, the date the money was posted to
      the bank account should be included. In addition, the
      controls surrounding the accuracy of the spreadsheet should
                                25
      be reviewed in order to ensure the integrity of the numbers
      being provided for management information reporting.

      OMD/WTB Response: Concur, all manually created spreadsheets
      shall include the date the money/transaction was posted to
      the bank account.

21.   Observation: Verification and Validation was not performed.
      (I, P, SDLC) [Medium]

      Recommendation: The project should implement a tracing of
      requirements to functionality. This traceability should
      allow the government to determine the magnitude of efforts
      that were proposed versus the cost of the as built. In
      addition, the process should be conducted or monitored by
      subject area experts.

      OMD/WTB Response: Concur. The FCC is pursuing via contract
      the development of an appropriate SDLC for adoption
      throughout the Commission. This SDLC is expected to define
      the development and tracking of initial requirements and to
      establish a mechanism for maintaining requirements
      definitions throughout the life cycle.

      The RAMIS Project Manager will propose that the FCC hire or
      task an IV&V contractor to perform tests against
      modifications and interfaces and, depending on the
      documented track record of the package selected, production.

22.   Observation: Contractor staff do not produce minutes or
      agendas for project meetings. In addition, only five months
      of status reports were provided for a project that has been
      on going for several years. (C, I) [Low]

      Recommendation: All meetings that are paid for by the
      government should be formally recorded and should, at a
      minimum include an agenda, any action items, and minutes.

      OMD/WTB Response: Concur, this practice is already in place
      for all OMD/WTB funded contracts.

      The RAMIS Project   Manager and the contractors will issue
      regular bi-weekly   project status reports that address
      issues, concerns,   and status on ongoing tasks and identify
      completed tasks.    All meetings will be documented.

23.   Observation: The developer is not following their proposed
      Quality Assurance (QA) plan. In addition, of the few
      documents produced, content can be significantly
      strengthened. (C, I, SDLC) [Low]

      Recommendation: The developer should be required to follow
                                  26
      the QA plan they proposed.

      OMD/WTB Response: Concur, as a part of the SOW, peer reviews
      will be required as part of the quality assurance function.

24.   Observation: The developer should have meeting minutes   that
      documents their perspective of events that occurred in   the
      meeting. For the period February 1997 through March 7,   1997
      weekly status reports were provided, but for no period   prior
      to or after. (C, I, SDLC) [Low]

      Recommendation: The developer should record all events that
      occur in meetings that affect schedules, programming
      efforts, enhancement efforts, or contractual requirements.

      OMD/WTB Response: Concur, this practice is already in place
      for all OMD/WTB funded contracts. As part of the RAMIS SOW,
      contractors will be required to submit comments on meetings,
      etc.

25.   Observation: Due to the lack of userid documentation (i.e.,
      the FCC personnel name, location, job responsibility, reason
      for access, title, etc.), it is not feasible to associate
      the userids with the groups defined in Sybase to determine
      if the group and associated user access is reasonable. (I,
      S) [Medium]

      Recommendation: A full review of the Sybase access control
      structure should be performed to fully document the
      structure, ensure it is reasonable based on the program
      structure, determine if the userids are current or should be
      deleted, and then determine their reasonableness of access.

      OMD/WTB Response: Concur, as stated previously a review of
      the Sybase access control structure is underway. This
      review is schedule to be completed and document by July 31,
      1998.

      Additionally, security issues will be addressed as a part of
      the implementation phase of the RAMIS project. Both
      operating system security and application security will be
      documented and implemented.

26.   Observation: The Sybase groups defined with access to stored
      procedures and database objects does not seem reasonable and
      does not seem to acknowledge a logical internal control
      system.   In addition, there seems to be references to
      userids which no longer exist (i.e., develop). (I, PO)
      [High]

      Recommendation: Review and correct group definitions as well
      as individual user accesses to ensure access is considered
                                   27
      reasonable based on job responsibilities and based on a
      sense of logical internal controls in accordance with OMB.
      In addition, security access structures should be reflective
      of the current environments. As the user base changes,
      there needs to be processes in place to ensure that userids
      are added, changed, and deleted accordingly.

      OMD/WTB Response: Concur, the Collection's Team is in the
      process of reviewing group definitions as well as individual
      user accesses to ensure that access is based on job
      responsibility and that logical internal control exist.

      Security issues will be addressed as a part of RAMIS's
      implementation phase. Both operating system security and
      application security will be documented and implemented.

27.   Observation: The Sybase access control reports showed
      defined accesses to stored procedures which did not seem to
      exist as they were not found in the extract of stored
      procedures provided. (I, S) [Medium]

      Recommendation: Administrative procedures must be put in
      place to ensure that once stored procedures are added or
      deleted, the appropriate access control changes are also
      made.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been instituting administrative procedures to
      ensure that all stored procedures added or deleted to the
      Collections System are tracked to ensure that the
      appropriate access control changes are also made and
      documented. Under RAMIS, security issues will be addressed
      as a part of the implementation phase of the project. Both
      operating system security and application security will be
      documented and implemented.

28.   Observation: The Project Manager userid is aliased (i.e.,
      defined) to the dbo, which has full permissions on all
      objects in the database owned by the dbo. (I, S) [High]

      Recommendation: In order to effect an appropriate logical
      internal control function, no single person should have
      access to the entire system. The Project Manager and
      developer personnel should be restricted to the development
      area only and should not have access to production or
      operational environments.

      OMD/WTB Response: Concur, security is of great concern and
      has been reviewed by OMD/WTB to ensure that the appropriate
      individuals have access only regions which meet their
      specific needs. The Data Base Owner (DBO) alias does not
      imply full permissions to all objects. Permissions are
                                28
      subset of those possessed by the DBA; the Project Manager
      and DBA are trustees of the system. We caution reliance on
      this observation, since the position of DBO is essential to
      database maintenance.

      OMD is currently working to implement a system development
      and management life cycle plan to ensure that no one person
      will have or be able to access the entire system.

      Security and access issues will be addressed as a part of
      the implementation phase of the RAMIS project. Both
      operating system security and application security will be
      documented and implemented.

29.   Observation: The Sybase Configuration file shows many
      default settings, which may or may not be appropriate for
      the Collection System. Particularly, the lack of enforced
      system-wide password changes, the use of allowing remote
      access, and the number of allowed remote logins and remote
      sites. (I) [Medium]

      Recommendation: The Configuration File options should be
      reviewed for their appropriate settings in the Collection
      System.

      OMD/WTB Response: Concur, over the past year the Collections
      Systems Database Administrator, COTR, and TPOC have reviewed
      all settings and established a management control policy and
      review system to ensure appropriate settings are maintained.

      Security issues will be addressed as a part of the
      implementation phase of the RAMIS project. Both operating
      system security and application security will be documented
      and implemented.

30.   Observation: Non-standard naming conventions
      (J:\magoo\dave\***) are used for storing production source
      code. (P) [Low]

      Recommendation: Use standard naming conventions.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been reviewing naming conventions and, where
      possible and feasible, been standardizing all naming
      conventions. Under RAMIS standard naming conventions shall
      be employed.

31.   Observation: Weekly Status Reports and/or Problem logs did
      not contain certain critical elements in order to be
      effective management tools. Critical elements include: What
      is the issue or discussion item; how did it become an issue
      (i.e., what caused the problem or who requested); who is
                                29
      responsible for resolving the issue; how was the issues
      resolved; when was it resolved. (P) [Low]

      Recommendation: Rework the status reports to include the
      critical elements.

      OMD/WTB Response: Concur, over the past year the Collections
      Team, COTR, and TPOC have reviewed and restructured all
      status reports. Under RAMIS the status reports will be
      reviewed and restructured based upon the needs of the FCC
      and the limitations of the selected COTS package.

32.   Observation: Because of the way in which bank information
      and auction information is processed within the Collection
      System, there is no subsidiary ledger for the Accounts
      Receivable in the General Ledger. (I) [Medium]

      Recommendation: Modifying the existing Collection System to
      create a subsidiary ledger is cost prohibitive. Move
      towards a different programming solution, considering COTS,
      and ensure the subsidiary ledger is a requirement of the
      system.

      OMD/WTB Response: Concur, the new system will function as a
      subsidiary ledger for all revenue, collection, and accounts
      receivable. Loan activity will be carried in a separate
      subsidiary ledger and will be summarized into the new system
      and then include in the summary reporting to FFS.
      (Implementation FY 2000)

33.   Observation: Review of the Stored Procedures indicated the
      intermingling of stored procedures labeled as test or temp.
      (I, P) [Medium]

      Recommendation: Test procedures should not be intermingled
      within the production stored procedures. Separate and
      distinct test and production environments should exist to
      assure only authorized changes to production code and data
      occur.

      OMD/WTB Response: Concur, this recommendation has already
      been satisfied, separate and distinct test and production
      environments are utilized. Additionally, RAMIS development
      and testing will be kept in separate environments from
      production.

34.   Observation: Execution of the extended fieldwork procedures
      highlighted the need for further documentation in the files
      in the event of bidder defaults and declining to participate
      in the auction after their Form 159s have been sent in and
      received by the FCC. (PI) [Low]

                                30
      Recommendation: Document in the files of the bidders when
      they have defaulted or declined to participate in an auction
      event if they have sent in a Form 159.

      OMD/WTB Response: Concur, source documents without dollars
      (FCC Form 159) shall be annotated by BCB to indicate non-
      participation in the auction event.

35.   Observation: During the Ernst & Young Data Integrity Review,
      it became readily apparent that same FCC Account Numbers are
      used to represent several companies. Although there may be
      valid reasons for this condition (e.g., companies are
      affiliated, company names have changed), it becomes very
      difficult to ascertain payment and refund trails. (I, PI)
      [High]

      Recommendation: Manual or automated procedures should be
      implemented to ensure a company name is associated with only
      one FCC Account Number within the Collections Database to
      ensure data integrity.

      OMD/WTB Response: Concur, over the past year the Collections
      Team, COTR, and TPOC have been addressing this issue. We
      are currently testing several approaches for an automated
      process for one name per account in order to ensure system
      data integrity. The new nightly load, which is due in
      production on September 30, 1998, will fulfill this
      requirement by allowing the update and association of the
      company name with the appropriate "FCC Account Number".

      Relational systems will not allow duplicate keys. The TIN
      as the primary key may present operational problems. A
      unique key must be established and used by all interfaced
      systems.

36.   Observation: During the Data Integrity Review Procedures,
      there were several instances in which items in the database
      did not behave properly. Records that were shown on the
      screen as reversed were still in the database with payment
      amounts (e.g., Jennifer Plant wire reversal). Items which
      should have been included in the database extract provided
      to Ernst & Young were not included (e.g., Omnipoint).
      Transactions that should have been in the database were
      placed in the database through a Paradox upload vs. a Mellon
      Bank transmission (e.g., Southeast Telephone LP). And a few
      transactions for $1.3 billion showed only as .3 billion
      (e.g., AT&T Wireless PCS Inc.) and $1.6 billion showed as .6
      billion due to field limitations in the database (through
      the details totaled the proper $1.3 billion on the Payment
      Transactions Detail Report). (D, I, P) [High]

      Recommendation: Ensure that the selected COTS package
                                31
      incorporates edits to detect these types of exceptions.

      OMD/WTB Response: Concur, the RAMIS SOW will identify the
      need for data quality checks and data integrity.

37.   Observation: Initially, Auction 11 transactions were
      recorded for using manual spreadsheets. After auction
      completion, net transactions were keyed into the Collection
      Database. Keying errors were identified in Auction 11
      transactions when these manual records were keyed into the
      collections database (e.g., Fee Control Number
      9703068850904016). (D, I, PI) [Low]

      Recommendation: All transactions, including upfront
      payments, refunds, and withdrawal payments, should be
      recorded directly into the Collections Database.

      OMD/WTB Response: Concur, all transactions will be captured
      in the current and new system as original entries.

38.   Observation: A significant percentage of the dates recorded
      in the Collection Database as Date Received were different
      from the supporting documents by one to three days, and in
      the case of auction payments, by months. For one check (Fee
      Control Number 9409098835469001), there were two dates noted
      where FCC asked Mellon to hold the check until the
      regulatory fee window opened a few months later. The
      integrity of the transaction recorded is compromised without
      proper date information. (D, P) [Medium]

      Recommendation: Transactions entered into the Collection
      Database should reflect the proper date received, date paid,
      etc.

      OMD/WTB Response: Concur, transactions entered into the
      Collection Database shall reflect the proper date received,
      date paid, etc.

39.   Observation: While reviewing files supporting auction
      payments, many Form 159s were identified which did not have
      corresponding transactions in the database. Subsequent
      research had to be performed to identify if the forms were
      duplicates or if the payor was in default or elected not to
      participate. (D, I, PI) [Low]

      Recommendation: Notations should be made on the Form 159s,
      which are not supporting valid transactions.

      OMD/WTB Response: Concur, annotation shall be made on the
      Form 159s, which are not supporting valid transactions,
      i.e., no money was received, or duplicate copy.

                                32
40.   Observation: Once auction events are completed, the monies
      are moved from the FCC Interest Bearing account into the
      Treasury bank account. These movements are recorded in the
      Collection Database. In addition to the movements of the
      net auction amounts are also recorded in the database. The
      money movements between bank accounts are subsequently
      reversed, but the payment amount field of the reversal is a
      positive number while the detail amount field is a negative
      number. This creates difficulties in obtaining reports from
      the Collection Database unless all fields are properly
      obtained. (D, I) [Low]

      Recommendation: Traditionally, bank account to bank account
      movements are recorded only in the cash accounts of the
      general ledger. Only customer payments coming into a bank
      account should be recorded in the Collection Database. The
      Collection Database should be corrected to accurately
      reflect the payment amounts as negative numbers in the
      Payment Amount field for reversals to ensure reports
      properly reflect the underlying detail transactions.

      OMD/WTB Response: Concur, recommendations presumes to change
      requirements and functionality; data must be accessed
      completely, and in the proper manner, in order to obtain
      complete results; finding is the result of improper data
      access. This will be included in the Collections Contractor
      tasking for FY 1999.

      A mandatory requirement will be included in the RAMIS RFP to
      assure that all transactions are recorded properly and that
      reversals reflect underlying detail.

41.   Observation: During the data integrity portion of the
      review, the Commission was unable to provide supporting
      documentation for selected transactions in a timely manner.
      This condition is indicative of business process issues,
      audit trail issues, and record-keeping issues. (I, PI)
      [Medium]

      Recommendation: Business processes for recording incoming
      money, refunds, and other payment should be improved to
      ensure that proper data elements are being recorded in the
      Collection Database. Changes to any data elements should be
      recorded with an adequate audit trail to allow for
      determination of who made the change, the reason for the
      change, and details concerning the specific change. This
      should exist whether the change was to an automated or
      manual record (i.e., documents maintained in the folders
      supporting the transaction.

      OMD/WTB Response: Concur, the new nightly load which is
      scheduled to go into production on September 30, 1998, will
                                33
      correct this finding. The RAMIS SOW will specify that the
      capability to retain notes with any transaction is highly
      desirable.

      Although the recommendation is based on an observation with
      which we do not totally agree, we will continue to improve
      our business processes to the maximum extent feasible.

      OIG Comment: This observation was based upon work conducted
      by E&Y as part of the data integrity portion of the review.
      The results of the E&Y data integrity review are discussed
      in summary in Section F of this document and the detailed
      report is included as Appendix A to this report.

      Management has stated that they "do not totally agree" with
      the observation on which this recommendation is based.
      However, they do not provide any details, either here or in
      their response to Section F, indicating why they believe
      that the observation is not factually accurate.

42.   Observation: The Paradox Upload performed in May 1997 was
      supposed to follow programmatic guidelines and rules for
      "updating" records in the Collection Database. Throughout
      the Data Integrity Review Procedures, database oddities
      appeared though the transactions all had supporting
      documentation showing money coming into the FCC bank
      account. Upon further investigation, it was learned that
      the Paradox Upload didn't function as intended, resulting in
      many oddities within the database transactional records.
      (D, I, P) [High]

      Recommendation: Do not perform any "uploads" to the
      collection Database that are not Bank originated
      transmissions. Any changes to be made to bank transactions
      should be made through an auditable process with proper
      audit trails and supporting documents of the items changed.
      Each of the transactions with the PDX initials (indicating
      the record was generated or changed as a result of the
      Paradox Upload) should be reviewed and tied to supporting
      documents. If the record is not supportable, it should be
      removed.

      OMD/WTB Response: Concur, over the past year the Collections
      Team, COTR, TPOC, and Mellon Bank have been developing a new
      "nightly load" process. The nightly load is generated from
      Mellon Bank and sent directly to the FCC's Collections
      System. All changes to be made to Mellon's transmission
      bank transactions follow a totally auditable process through
      the Billings and Collections Branch (BCB). Prior to
      migrating to RAMIS, the historical data maintained in the
      collections database will be reviewed, validated, and
      verified to determine if migration is recommended.
                                34
Banking Related Matters to Improve Efficiency or Costs

Banking related matters concern those processes contained at the
bank or at the Commission which involve the handling of banking
information. When identifying areas for process improvement, the
ideal basis is to concentrate on single sources for information,
input, and processing in lieu of redundancy.

43.   Observation: Mellon Bank is using primarily manual processes
      for processing lockbox payment information including
      handwritten fee tables; if-then type procedures; manual
      adding of payment amounts; copying of documents; matching of
      payments to 159 forms; preparation of 159 forms if there are
      none; and creation of zero amount records. There is no use
      of available technology to make the process more efficient
      at the Bank or at the FCC. This leaves a significant room
      for mis-keying and mis-matching of payments to supporting
      documents. (PI) [Low]

      Recommendation: Perform a lockbox bank processing analysis
      and review of FCC payment processing procedures to make use
      of more current computer technology for processing the high
      volume of small dollar payments.

      OMD/WTB Response: Concur, the RAMIS Project Manager will
      work with the servicing banks to streamline processes and
      improve data integrity. Since the "feed" will have to be
      entirely rewritten to accommodate any system that is put in
      place, this will be an ideal opportunity to improve our
      processes.

44.   Observation: The electronic interface between the Collection
      System and Mellon Bank is using non-standard transmission
      formats. Use of the non-standard transmission formats
      ignores currently available technology and causes the need
      for more maintenance at both Mellon Bank and at the FCC.
      (PI) [Low]

      Recommendation: Use the banking standard BAI format to allow
      for identification of all payment types (i.e., check, wire
      transfer, ACH, etc.) and for descriptive detail (i.e., payor
      name, payor address, nature of the payment, etc.) to be
      transmitted for potential matching in the Collection System.

      OMD/WTB Response: Concur, the new system will use the BAI
      terminology and formats to the extent feasible.

45.   Observation: FCC does not receive full summary and detail
      transaction records from Mellon Bank in the existing
      electronic transmission. (PI) [Low]

                                35
      Recommendation: Direct Mellon Bank to furnish full summary,
      detail, and returned item records from Mellon Bank in order
      to properly populate the Collection System database.

      OMD/WTB Response: Concur, the Commission shall request the
      lockbox provide full summary, detail and return item records
      to allow for the proper population of the Collection System
      database. The request shall be submitted to the lockbox
      bank on or before July 31, 1998.

      The RAMIS system will be the control point for all servicing
      banks transactions.

46.   Observation: FCC issues approximately 700 wire transfers per
      year at a cost of $10-12 per wire transfer. (PI) [Low]

      Recommendation: Use ACH payments instead of wire transfers.
      ACH rates are typically less (could be pennies per
      transactions or at most $1-2 dollars) and can be issued with
      one-day settlement instructions. This will result in bank
      fee savings for the FCC.

      OMD/WTB Response: Non-Concur, the use of wire transfer for
      returning auction upfront money to non-winners is preferred
      by the customer and has proven to be very efficient. This
      is the only refund processing application which utilizes
      wires, all other refunds utilize ACH or check, including
      credit card refunds. There is no charge to the FCC for this
      service.

      The new system must be able to support a wide range of
      receipt mechanisms as well as payment (refund) options.

      OIG Comment: In their response, OMD/WTB have indicated their
      decision to use wire transfers for customer convenience and
      because it has proven to be very efficient. The response
      also states that "(t)here is not charge to the FCC for this
      service."

      Certainly it is appropriate for management to take into
      consideration such elements as customer convenience and
      efficiency during the selection of a refund payment process.
       The intent of our recommendation was to point out a lower
      cost alternative. It is also worth noting that, although
      the Commission is not charged for wire transfers, it is
      likely that the Department of the Treasury incurs charges
      for this service.

47.   Observation: Multiple receipt files are sent from Mellon
      Bank to the Collection System, and the FFS General Ledger
      System. This means that there must be multiple input file
      validation checks on the same banking data sent to several
                                36
      different locations.   (PI) [Low]

      Recommendation: A central group should be used for obtaining
      the banking information and then disbursing the information
      to the other systems for processing. This central group can
      then ensure the banking information is complete and for the
      correct date, and it can be done once and only once instead
      of the repetitive procedures in the multiple sites.

      OMD/WTB Response: Concur, all transactions will be included
      in the RAMIS database and will be transmitted in summary to
      FFS for the general ledger and to other users to update
      their databases. (Implementation FY 2000)

48.   Observation: Wire transfers and ACH electronic payments are
      paid into bank accounts monitored by the lockbox processing
      area of Mellon Bank. Traditionally, electronic payments
      (wire or ACH) are paid into separate bank accounts not
      monitored or handled by the lockbox processing area. This
      is done to ensure the immediate availability that comes when
      those types of electronic payments are realized. If these
      type of payments come into a lockbox account after the
      lockbox cutoff time, the agency may not get the immediate
      availability until the next business day, thus losing use of
      funds for that time period. (PI) [Low]

      Recommendation: The Commission should explore the
      feasibility of establishing separate accounts outside the
      lockbox processing area for electronic payments.

      OMD/WTB Response: Concur, as a part of the business re-
      engineering process, the RAMIS team will evaluate banking
      processes and recommend changes depending on the COTS system
      chosen.

Contracting Matters

During the contracting process, attempts are made to place
guidelines, standards, and units of measure for how the contract
support should perform in order to carry out the Commission
objectives. Without adherence to those units of measure by the
Contractor Support teams and without enforcement by Commission
representatives, development efforts take on their own path
without the success of the Commission as the goal. This path may
or may not incorporate the appropriate controls required in
financial applications. As a result, many of the controls are
left out or are compromised during the development process. The
end result can be applications that do not meet the desired
functionality of the Commission, do not support the proper
internal control structures for adherence to OMB requirements. A
lack of measurable performance units may limit recourse against
systems development contractors by the Commission.
                                 37
49.   Observation: Computech and Sybase contractors perform
      operational functions for the FCC as part of the daily
      Collection System process. In addition, these same
      contractors are responsible for the development of the
      Collection System. (I) [High]

      Recommendation: Remove the contractors who develop the
      Collection System from the operational aspects of the FCC
      Collection process. A clear division of labor should exist
      between Operations and Development. Developers, DBA, and
      programmers should not be allowed to perform live production
      or operational activities as it compromises the segregation
      of duties required by OMB.

      OMD/WTB Response: Concur, over the past year the Collections
      Team, COTR, and TPOC have separated the Collections Team
      development and production duties and responsibilities.
      Currently, there is a separate and distinct development
      team, testing environment, and production team to support
      the FCC's Collections System. Under RAMIS this
      recommendation will be fully complied with and adopted.

50.   Observation: The Commission has not established an adequate
      process to measure and evaluate Collection System contractor
      performance. Our review indicates that minimal task order
      status reports, designed to ensure adherence to existing
      contracts and statements of work, have been provided. Those
      status reports that were obtained and evaluated were
      determined to be repetitive (i.e., reporting the same events
      from month to month) or found by FCC contract personnel to
      be non-compliant. Without the accountability and
      enforcement of measuring contractor performance, funds
      become quickly expended and the FCC has not received
      reasonable services or deliverables for their money. (I)
      [Low]

      Recommendation: Accountability for contractor performance on
      contracts and adherence to Statements of Work must be
      enforced within the FCC contract monitoring structure.

      OMD/WTB Response: Concur, the respective Project Managers
      will work closely with Contracts to assure that a statement
      of work is developed that will assure performance-based
      compliance. The project will be monitored using tools such
      as, but not limited to Microsoft Project, with tasks
      identified at the lowest level possible to assure control.

51.   Observation: The Development Contractors did not possess
      appropriate financial expertise to develop the Collection
      System that we have defined as a financial system. (SDLC)
      [Low]
                                38
      Recommendation: When developing financial systems, require
      the contractors to supply personnel with financial
      application development expertise to ensure financial
      requirements are being properly interpreted from the users
      and programmed into the application.

      OMD/WTB Response: Concur, over the past year Computech has
      hired Collections Team programmers who have stronger
      programming and financial experience more in line with the
      requirements to support the Collections System. Under RAMIS
      personnel with financial application development expertise
      will be utilized to ensure that the financial requirements
      are properly interpreted from the users and programmed into
      the COTS application.

52.   Observation: The most experienced programmer assigned to the
      project (i.e., Senior Developer) had no experience in
      developing financial applications. Others interviewed have
      little or no experience in developing financial
      applications. (P, SDLC) [Low]

      Recommendation: The criteria for replacement of individuals
      should include that a majority of the individuals be
      experienced in the development of financial applications.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been restructured and, through attrition,
      replacements have been brought on the team with stronger
      programming and financial experience more in line with the
      requirements to support the Collections System.

53.   Observation: The deviations from the Project Plan were never
      formalized. Instead informal correspondence was used to
      document changes in priorities and tasks. (SDLC) [Low]

      Recommendation: All changes to tasking and requirements
      should be coordinated through the contracting officer. In
      addition, the contractor should not accept contractual
      relief from the COTR.

      OMD/WTB Response: Concur, this no longer occurs.

54.   Observation: There was no Quality Assurance on this project.
      (I, SDLC) [Low]

      Recommendation: The FCC should require the contractor to
      implement their proposed quality assurance plan for this
      project.

      OMD/WTB Response: Concur, over the past year the Contractor
      has implemented procedures to ensure compliance with their
                                39
      Quality Assurance (QA). The COTR and TPOC regularly meet
      with the Contractor's Program Manager to review deliverables
      under this project. Under RAMIS the COTS contractor will be
      required to propose and then maintain rigorous quality
      assurance, an engineering approach to any modifications, and
      meet the test plan requirements set out by the FCC.

      The ITC also accepts this recommendation. Information is
      now being assembled defining each contractors QA plans and
      COTRs will use this information to review their contractors
      project management efforts and evaluate performance.

55.   Observation: Buzz words and multiple-meaning words (e.g.
      "completed") are used in the Status Reports, which would
      cause the reader to make an incorrect assumption. For
      example, it has been indicated in the Status Reports that
      all auction payment processing has been completed. In fact,
      up-front auction payments had not been processed and loaded
      into the Collection Database. (P) [Low]

      Recommendation: The Commission should direct Collection
      System contractor's to revise the wording of the status
      reports so that persons reading the documents who are not
      close to the project are able to make the correct
      assumptions and not be mislead or misinterpret the status of
      the project tasks.

      OMD/WTB Response: Concur, future status report wording will
      include adequate text in order to avoid misinterpretation of
      the status of the project. The respective Project Managers
      and the contractors will issue regular bi-weekly project
      status reports that address issues, concerns, and status on
      ongoing tasks and identify completed tasks.

56.   Observation: Stored Procedures exist without appropriate
      header comments. Without header comments there is no place
      for describing the Stored Procedure, identifying the
      developer, and recording the changes to the Stored
      Procedure. Good programming standards, such as header
      comments, are essential in support of change management.
      (I, P) [Low]

      Recommendation: Develop a coding standards manual mandating
      that all Stored Procedures contain header comments. Update
      all Stored Procedures to comply with the coding standards
      manual. Ensure that the program code review procedures
      include steps to verify compliance with the coding standards
      manual.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been developing a coding standards manual which
      includes a requirement that all stored procedures contain
                                40
      header comments and that all updates comply with the coding
      standards manual. As part of the development of the manual
      a quarterly program review requirement is being instituted
      to ensure that the Collections System program code review
      procedures include steps to verify compliance with the
      coding standards manual.

Database Issues

Database issues are similar to the audit trail control issues in
that they affect the integrity of the data in the Collection
System. The database specific issues can be more technical in
nature than the general audit trail control issues, and thus have
been segregated out from those. Without the proper controls
built into the database structures, database security, and
database procedures, the entire application can be compromised
and the desired internal controls structures can also be more
easily compromised. If database controls are not properly
implemented and adhered to, inconsistent handling of the data can
result in erroneous and/or missing data in the Collection System.
 The Collection System can also become more costly for the
Commission to maintain in the long run without adherence to
proper database maintenance standards.

57.   Observation: The tracking of operational problem resolution
      is not formal and does not document what the problem is,
      what caused the problem, how it was resolved, and by whom
      with an appropriate tracking number. (P, PI) [Low]

      Recommendation: Implement a formal problem resolution
      tracking system to ensure that operational problems are
      resolved in a timely and maintainable manner.

      OMD/WTB Response: Concur, this practice is in place within
      the current management structure of the Collection System.
      A formal process is in place to track operational problems
      within the database.

58.   Observation: Historical collection data is maintained on the
      Altos Computer. The Altos computer has modem connections
      used to dial out to the bank. Altos Computer security has
      not been reviewed. [Low]

      Recommendation: A comprehensive security review should be
      performed on the Altos computer to ensure the data is
      controlled in a secure environment.

      OMD/WTB Response: Concur, the data previously housed and
      maintained on the Altos has been transferred to a stand-
      alone database that can be accessed by the Collections
      System. The waiver application still resides on the ALTOS.
      Programming efforts to include the waiver application
                                41
      software in the current Collection System is expected to
      implemented in the first quarter FY 1999. Additionally,
      waiver tracking will be a requirement of RAMIS.

59.   Observation: Historical data has not been converted off of
      the Altos computer to the new Collection System database.
      (P) [Low]

      Recommendation: Study, plan, design and implement the
      conversion of the data from the Altos computer to the new
      Collection System database.

      OMD/WTB Response: Concur, the data has been transferred to a
      stand-alone database that can be accessed by the Collections
      System.

60.   Observation: Sybase contractors are not performing typical
      DBA activities such as: documentation of the Unix and Sybase
      environments, monitoring and optimizing the database
      performance, optimizing indices, preparing and testing
      contingency plans and scripts, documenting and preparing DBA
      workbooks, etc. Instead, Sybase DBAs are [add typical
      functions]. (I) [High]

      Recommendation: Refocus the Sybase contractor efforts onto
      DBA activities instead of operational activities.

      OMD/WTB Response: Concur, this recommendation has already
      been implemented.

61.   Observation: The Collection System is comprised of two
      separate databases (one in Gettysburg, PA and one in
      Washington, DC). Maintenance of procedures and databases for
      two separate but similar databases is costly and
      inefficient. (PI) [Low]

      Recommendation: Consolidate the two separate databases into
      one database.

      OMD/WTB Response: Concur, the task to consolidate the two
      databases is under consideration.

62.   Observation: Operating system, network application, database
      application, and program application changes are made to the
      production environment without proper testing of the
      underlying applications to ensure proper operation and
      functionality after the change. In one case, changes were
      made to the version of Sybase being used. This change
      results in a significant negative impact on collection
      system performance. (P, PI) [High]

      Recommendation: Implement formal procedures to ensure all
                                42
      underlying critical applications are tested with the new
      software prior to the new software being placed into the
      production environment.

      OMD/WTB Response: Concur, the Collections Team has already
      adopted this recommendation.

63.   Observation: The Collection System shares its server with
      other non-critical applications. (P) [Medium]

      Recommendation: Due to the criticality of the accuracy of
      the information processed by the Collection System, develop
      an infrastructure which can ensure proper security and
      controlled environmental changes to the programs being run
      (such as a separate enclave).

      OMD/WTB Response: Concur, the Collection System now has
      three separate environments (development, testing and
      production) as an infrastructure to assure security and a
      controlled environment for change. It is anticipated that
      RAMIS will be supported on a dedicated server.

64.   Observation: Data fill is used in the form of zeroes on
      Collection System database records in order to attain the
      fixed length defined for the record set. The system is thus
      storing unnecessary zeroes. (P) [Low]

      Recommendation: Evaluate the system design and tools used to
      determine if this is the most efficient manner for obtaining
      and storing database records. Storing of unnecessary
      information places undue burden on the database
      optimization.

      OMD/WTB Response: Concur, the Collections Team has already
      evaluated the system design and the available tools used to
      determine the efficiency of the Collections System. Based
      upon this review the COTR procured additional software tools
      for tracking and deleting unnecessary information as well as
      authorizing modifications to existing system modules to
      optimize performance.

65.   Observation: Review of the log files displayed many lines of
      errors (i.e., file not found, command aborted, cannot open
      input file). These types of errors may be indicative of
      loose ends in the program code. (P) [Low]

      Recommendation: Each and every error in the log files should
      be fully explored to determine the cause, and how the error
      should be fixed for operational purposes and for programming
      purposes.

      OMD/WTB Response: Concur, the log is reviewed at least daily
                                43
      by the DBA, problems are promptly followed up on.

66.   Observation: The SQL file cc_match.sql has extensive
      programming contained within the file. (P) [Low]

      Recommendation: The cc_match.sql programming should be
      rewritten into a stored procedure which falls under the
      normal Sybase access control protection and maintains
      programming consistency.

      OMD/WTB Response: Concur, the new nightly load which will be
      place into production by October 1, 1998, will satisfy this
      recommendation.

67.   Observation: A Shell script (holdload.sh) contains code that
      obtains information from a Data Fill file (WFEETAB5.FIL).
      The Data Fill file has to be changed each day in order for
      the information to be valid. (P) [Low]

      Recommendation: Adjust the script to make use of more
      automated checks. For example, date validation checks, BAI
      end of file checks, Summarized transactions in comparison to
      balance records checks, etc.

      OMD/WTB Response: Concur, the new nightly load which will be
      place into production by October 1, 1998, will satisfy this
      recommendation. In addition, all future upgrades,
      enhancements and changes will comply with this requirement.

68.   Observation: The Data Dictionary documentation of the date
      last altered does not seem to be working properly. A Data
      Dictionary copy was obtained from the Billings and
      Collection Branch and from the Developers. The contents of
      the BCB document were empty as of 11/8/96, but the "date
      last altered" shows 9/16/96 on the Developers copy. If the
      date last altered does not function correctly, this may
      present serious documentation issues as it will not be known
      if the most current version is being worked with. (P, PO)
      [Low]

      Recommendation: Review the settings for the date last
      altered to ensure it is properly functioning.

      OMD/WTB Response: Concur, the Collections Team has been
      tasked to review the settings for the date last altered to
      ensure it is properly functioning. Review to be performed
      by July 31, 1998.

69.   Observation: The Data Dictionary and Data Entities Listing
      contained many loose ends. Sources were not shown on
      diagrams, elements were not used, and much of the individual
      element documentation was not considered complete. (P, PO,
                                44
      SDLC) [Low]

      Recommendation: The Data Dictionary and Data Entities
      Listing should be reviewed and cleaned up to reflect the
      system as it exists, delete obsolete elements, and ensure
      elements are fully documented.

      OMD/WTB Response: Concur, the Data Dictionary and Data
      Entities Listing are dynamic documents which over the past
      year the Collections Team has been updating to reflect the
      current system. Additionally, when a software update has
      been successfully tested and accepted by BCB these documents
      are updated to reflect the additions, changes, and/or
      modifications.

70.   Observation: The Data Dictionary and Data Entities Listing
      are not normalized. Our review identified several instances
      in which the exact same field element was presented numerous
      times. (P, SDLC) [Low]

      Recommendation: Conduct an analysis to determine if data
      elements and data entities can be further reduced.

      OMD/WTB Response: Concur, a feasibility study will be
      conducted in the FY 1999 to reduce data elements and data
      entities.

71.   Observation: The Auction Application passes along a
      significant amount of information to the Collection System.
      In some cases, the same information is stored on both the
      Auction Application Database and the Collection System
      Database, resulting in redundant amounts of data. (PI) [Low]

      Recommendation: Review the interfacing between the Auction
      Application and the Collection System to streamline the
      dataflows and only store the necessary information in one
      system.

      OMD/WTB Response: Concur, a review shall be conducted in
      order to streamline the dataflows and only store the
      necessary information in one system. The review shall be
      completed by September 30, 1998. We hope to minimize data
      redundancy to the maximum extent within security
      constraints. So long as we can communicate with feeder
      systems, the revenue/collection system should hold as little
      unnecessary data as possible.

Internal Control Issues Affecting Segregation of Duties
And Compromise of Controls
Segregation of Duties internal controls help to ensure that no
one person has the ability to facilitate or process in all
                                45
aspects of a system. This helps to ensure that only authorized
activities happen in an application or a system. The compromise
of the segregation of duty controls can allow for exposure to
unauthorized activities that may be at the detriment of the
Commission in a financial or regulatory manner.

72.   Observation: BCB personnel responsible for the daily
      collection activities may also initiate refunds related to
      those same activities. While there is a formal review and
      approve process in place, the reviewers and approvers are
      also performing daily collection activities and are
      responsible for reviewing those daily activities. [High]

      Recommendation: Define a Business Process that segregates
      the refund function from the BCB personnel.

      OMD/WTB Response: Concur, since all checks, credit card
      transactions, and wire transfers are handled through the
      lockbox facility, we believe that the processing of properly
      authorized refunds is adequate. Under RAMIS the workflow
      analysis and the subsequent business process re-engineering
      will address separation of duties.

73.   Observation: Credit card numbers of customers paying for
      fees and other matters with their credit cards are
      maintained on the Server with no encryption in place. FMS
      allows the use of credit cards as long as the credit card
      numbers are not maintained in a database. (S) [High]

      Recommendation: Remove the credit card numbers from the
      Collection Database or work with FMS to determine if FCC can
      instead encrypt the credit card numbers in the database.

      OMD/WTB Response: Concur, the Collections Team is actively
      working with the U.S. Treasury and Mellon Bank to develop a
      credit card system for the FCC. All credit card numbers,
      those already in the Collections System as well as those to
      be in-put into the system, will be protected following U.S.
      Treasury rules, policies, and guidelines. This credit card
      program will migrate to RAMIS.

74.   Observation: Segregation of duties between refund of auction
      payments, daily cash application, and daily reconciliation
      of Certificates of Deposit has room for improvement.
      [Medium]

      Recommendation: Define a business process that segregates
      the reconciliation of the Certificates of Deposit, the
      refund execution of auction payments, the cash application
      process, and the reconciliation of Bank Statements.

      OMD/WTB Response: Concur, the RAMIS workflow analysis and
                                46
      the subsequent business process re-engineering will address
      separation of duties. (3rd Quarter 1999)

75.   Observation: Programming standards do not exist for the
      programmers of the Collection System. (P, PO) [Medium]

      Recommendation: Implement and enforce the use of standard
      programming procedures from the existing Developers Company
      guidelines or other acceptable guidance.

      OMD/WTB Response: Concur, over the past year the COTR and
      TPOC have implemented and enforced the use of standard
      programming procedures by the Collections Team programmers.

76.   Observation: Customers credit card numbers are stored in the
      Collection System Database. (S) [High]

      Recommendation: Credit card numbers should be secured in the
      tightest manner possible, which would include strong
      encryption and strong access controls. Implement the strong
      encryption techniques and access controls to help prevent
      unauthorized access and/or use of customer credit card
      numbers.

      OMD/WTB Response: Concur, the Collections Team is actively
      working with the U.S. Treasury and Mellon Bank to develop a
      credit card system for the FCC. All credit card numbers,
      those already in the Collections System as well as those to
      be in-put into the system, will be protected following U.S.
      Treasury rules, policies, and guidelines. This credit card
      program will migrate to RAMIS.

77.   Observation: Data Entity labeled CONFIDENTIAL_PAYMENT could
      be indicative of surreptitious activities. It is not a
      normal financial application feature. (S) [High]

      Recommendation: Delete this data entity.

      OMD/WTB Response: Concur, we will review the labelling, and
      if it is appropriate we will delete this data entity. The
      review will be accomplished by July 31, 1998.

78.   Observation: Sybase roles and responsibilities have an
      excessive number of userids assigned to the sa_role (13),
      sso_role (10), sybase_ts_support role (4). (S) [Medium]

      Recommendation: Implement a periodic review procedure to
      determine whether the userids assigned these more powerful
      Sybase functions are still necessary and that the access is
      appropriately authorized.

      OMD/WTB Response: Concur, over the past year the Collections
                                47
      Team DBA has met with the COTR and TPOC on a quarterly basis
      to determine whether the userids assigned to the Sybase
      functions are still necessary and that the access is
      appropriately authorized. New userids must go through the
      TPOC and COTR for authorization.

79.   Observation: Until recently, software peer reviews had not
      been used in the development of the software. The
      establishment of these reviews occurred such a short time
      ago that the effectiveness is unknown. (P, SDLC) [Low]

      Recommendation: The Commission should periodically review
      the results of the software peer review process to ensure
      that it been effectively implemented.

      OMD/WTB Response: Concur, as a part of the RAMIS SOW, peer
      reviews will be required as part of the quality assurance
      function. (2nd Quarter FY 1999)

80.   Observation: Some of the developers on the project are
      following informal programming standards. (P, SDLC)
      [Medium]

      Recommendation: The Commission should ensure that Collection
      System contractors implement either a government provided
      programming standard or their corporate programming
      standards.

      OMD/WTB Response: Concur, The ITC's emphasis is being placed
      on the development of FCC programming standards for each
      language. Changes in ITC contracts for Sybase, PowerBuilder
      and web support staff now being made will permit these
      contractors to work with FCC staff to develop programming
      standards for the basic languages in use at the FCC. These
      standards will be promulgated and their use by PSC staff
      verified.

      FCC published standards or COTS Contractor standards will be
      used for RAMIS.

81.   Observation: The project did not have a problem report with
      the associated documentation that would indicate a formal
      change management process. (I, P, SDLC) [Medium]

      Recommendation: The project needs to implement a change
      control process that is formalized with documentation and
      approval processes.

      OMD/WTB Response: Concur, the COTR and TPOC, in coordination
      with the Contractor's Program Manager, have implemented a
      formalized change control process. This process requires a
      "Change Request" document be initiated by the Requestor and
                                48
      be submitted to the COTR for approval by the COTR and TPOC
      before the programmers make any changes.

      The FCC is pursuing improvement to the management of all ADP
      development projects on several paths. The first is by
      defining and implementing an FCC SDLC. The second is
      through the ITC providing increased support to programming
      task staff for the management of requirements definition,
      changes to requirements, system releases, hardware and
      software configuration changes/upgrades etc. In support of
      this effort ITC recently purchased the CAST Workbench.
      PVCS, PowerSite and other products that can support this
      effort are under evaluation. Thirdly, ITC is establishing a
      more defined and controlled process through which
      releases/version are moved from development to
      test/acceptance and implementation under the control of FCC
      staff.
82.   Observation: The project could not show any evidence of a
      cohesive project plan. (P, SDLC) [Low]

      Recommendation: The project manager for this program should
      either be trained or relieved. In either case, a cohesive
      project plan should be developed to address the activities
      that are projected during the course of the effort.

      OMD/WTB Response: Concur, the Collections Team has been
      reorganized and the current Project Manager is a fully
      qualified Sybase and Powerbuilder programmer. In addition,
      there has been a staff transition within the Collection Team
      which has added qualified Powerbuilder 5.0 programmers and a
      management analyst which strengthen the credentials of the
      team. OMD/WTB has worked with the Collections Team Project
      Manager to develop a cohesive project plan which address
      activities that are projected during the course of the
      effort. Specifically, these activities focus on the
      production modules which must be maintained for daily
      operations, the remaining modules will be addressed by
      RAMIS.

83.   Observation: A Test Plan does not exist.   (SDLC) [Low]

      Recommendation: The project should formalize the testing
      process. It should address, at the minimum, unit testing,
      integration testing, performance testing, and government
      acceptance testing.

      OMD/WTB Response: Concur, the Collections Team has already
      instituted a segregated test environment with formalized
      testing procedures and "push-pull" approval requirements.
      In addition, the Collections Team maintains a library of all
      test plans.
                                49
84.   Observation: Unprofessional naming conventions were
      identified in the review of the Sybase Stored procedures
      which make reference to "junk" or individual programmers
      names. (P) [Low]

      Recommendation: Standard naming conventions with
      professional naming should be used for labeling of all
      stored procedures. Meaning of the stored procedure should
      be entailed within the naming convention used.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been utilizing standard naming conventions with
      professional naming for labeling of all stored procedures to
      include a definition of the stored procedure.

85.   Observation: Review of the stored procedures yielded several
      procedures which would seem to be obsolete since the coding
      of the stored procedure did not cause an action of any kind
      to occur on a Collection System Table. (P) [Low]

      Recommendation: Standard change control procedures help to
      prevent retention of obsolete code and should be employed.
      Additional controls in the form of periodic reviews for
      obsolete code and scrubbing of the system are also
      encouraged.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been utilizing standard change control procedures
      in order to prevent retention of obsolete code. In
      addition, the Collections Team has been tasked to review and
      delete obsolete code within the Collections System program
      modules. The review of existing code will be completed by
      December 31, 1998.

      In addition, the Collections Team has instituted a quarterly
      code review to maintain a configuration management system
      for the Collections System program code.

86.   Observation: Stored Procedures variables are being declared
      without an appropriate comment. Variables need to be
      defined and identified with a comment to assist the
      maintainer of the Stored Procedure in understanding the
      value and relationship of the variable. Ensure that the
      program code review procedures include steps to verify
      compliance with the coding standards manual. (P) [Low]

      Recommendation: Develop a coding   standards manual mandating
      that all variables within Stored   Procedures contain comments
      that describe the purpose of the   variable. Update all
      Stored Procedures to comply with   the coding standards
      manual. Ensure that the program    code review procedures
                                50
      include steps to verify compliance with the coding standards
      manual.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been utilizing standard naming conventions with
      professional naming for labeling of all stored procedures to
      include a definition of the stored procedure. The
      Collections Team has been tasked to develop a coding
      standards manual with a requirement to update all Stored
      Procedures to comply with the coding standards manual.

87.   Observation: The underlying behavior of a Stored Procedure
      is not being expressed in plain language. Maintainers
      should find, within the header comments of Stored
      Procedures, plain language that describes the function and
      flow of the Stored Procedure. (P) [Low]

      Recommendation: Develop a coding standards manual mandating
      that all Stored Procedures contain, within the header
      comments, plain language that expresses the behavior of the
      Stored Procedure. Update all Stored Procedures to comply
      with the coding standards manual. Ensure that the program
      code review procedures include steps to verify compliance
      with the coding standards manual.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been utilizing standard naming conventions with
      professional naming for labeling of all stored procedures to
      include a definition of the stored procedure. The
      Collections Team is developing a coding standards manual
      which includes procedures to ensure that all Stored
      Procedures contain, within the header comments, plain
      language that expresses the behavior of the Stored
      Procedure. The completed manual is due by March 31, 1999.

88.   Observation: Some Stored Procedures do not contain comments
      in code to help in the understanding of the code. Comments
      within the body of the Stored Procedure need to exist for
      identify logic flow and function to assist maintainers in
      the change. (P) [Low]

      Recommendation: Develop a coding standards manual mandating
      that all Stored Procedures contain comments in code to
      facilitate understanding the algorithm reflected in the
      software. Update all Stored Procedures to comply with the
      coding standards manual. Ensure that the program code review
      procedures include steps to verify compliance with the
      coding standards manual.

      OMD/WTB Response: Concur, the Collections Team will develop
      a coding standards manual mandating that all Stored
      Procedures contain comments in code to facilitate
                                51
      understanding the algorithm reflected in the software.
      Updates to all Stored Procedures will comply with the coding
      standards manual. The completed manual is due by March 31,
      1999.

89.   Observation: A standard layout format for Stored Procedures
      could not be identified. (P) [Low]

      Recommendation: Develop a coding standards manual mandating
      that all Stored Procedures conform to a standard layout
      format and ensure that the program code review procedures
      include steps to verify that Stored Procedures conform to
      the standard layout format in the coding standards manual.

      OMD/WTB Response: Concur, the Collections Team will develop
      a coding standards manual mandating that all Stored
      Procedures conform to a standard layout format and ensure
      that the program code review procedures include steps to
      verify that Stored Procedures conform to the standard layout
      format in the coding standards manual. The completed manual
      is due by March 31, 1999.

90.   Observation: A consistent naming convention for Stored
      Procedures could not be identified. (P) [Low]

      Recommendation: Develop a coding standards manual mandating
      that all Stored Procedures conform to a standard naming
      convention. Ensure that the program code review procedures
      include steps to verify that Stored Procedures conform to a
      standard naming convention as specified in the coding
      standards manual.

      OMD/WTB Response: Concur, the Collections Team will develop
      a coding standards manual mandating that all Stored
      Procedures conform to a standard naming convention. Ensure
      that the program code review procedures include steps to
      verify that Stored Procedures conform to a standard naming
      convention as specified in the coding standards manual. The
      completed manual is due by March 31, 1999.

91.   Observation: The Collection System Payments Narrative
      Processes Breakdown documentation has numerous clerical
      errors, and lists many processes that were missing or
      unaccounted for. (P) [Low]

      Recommendation: The Commission should direct the
      contractor's developing the Collection System to complete
      the documentation of the existing processes listed in the
      Payment Process breakdown and make them available to all
      users.

      OMD/WTB Response: Concur, over the past year the Collections
                                52
      Team has been documenting the entire Collections System's
      modules and processes, including the Payment Process
      breakdown. The completed manual will be available for all
      users in the second quarter of FY 1999.

92.   Observation: The Collection System Payment Processes do not
      use a standard format, and do not have clear cut step by
      step procedures. In addition, insufficient information is
      provided within the content of the process described. (P)
      [Low]

      Recommendation: Establish a standard format that all
      processes will be drafted by. Include in each process the
      objective of the process, why the process is being done, who
      is responsible for the completion of the process, when it is
      to be done, step by step procedures on how the process is to
      be done, how the process is verified and validated, and what
      the user does with the completed transaction.

      OMD/WTB Response: Concur, the Collections Team, COTR and
      TPOC have been establishing a standard format for all
      Collections System processes. This includes the objective
      of the process, why the process is being done, who is
      responsible for the completion of the process, when it is to
      be done, step by step procedures on how the process is to be
      done, how the process is verified and validated, and what
      the user does with the completed transaction.

93.   Observation: Non standard banking terminology was used in
      the drafting of the processes, which could be
      misinterpreted. (P) [Low]

      Recommendation: Use standard banking terminology in the
      drafting of all Collection System Payment Processes.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been using standard banking terminology in the
      drafting of all Collection System Payment Processes.

94.   Observation: Numerous processes have been drafted containing
      little or no information at all. (P) [Low]

      Recommendation: Establish a standard format that all
      processes will be drafted by. Include in each process all
      information required to complete that process.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has been working with the COTR and TPOC to establish a
      standard format for drafting all processes.

Programming Related Matters

                                53
Programming issues are systematic of not having or adhering to a
System Development Life Cycle (SDLC) methodology. Without the
proper controls built into the programming methods, programming
code, and programming processes, the entire application can be
compromised and the desired internal controls structures can also
be more easily compromised. This leads to more costs for the
Commission to maintain the Collection System in the long run
without adherence to proper programming standards. New releases
of software can also make the maintainability of the Collection
System more difficult as the application may have to be
re-written each time a new operating system or database software
release is implemented due to the way in which the program code
has been effected and documented. This could result in
tremendous costs to the Commission.

95.   Observation: The Data Dictionary contained several instances
      of non-professional language. (PO, SDLC) [Low]

      Recommendation: Enforce good programming standards to ensure
      professional language is used throughout the Data
      Dictionary.

      OMD/WTB Response: Concur, over the past year the Collections
      Team has followed good programming standards to ensure
      professional language is used throughout the Data
      Dictionary. The Data Dictionary will be updated on a
      quarterly basis until convergence to RAMIS.

      The ITC also accepts this recommendation. Instructions to
      contractor project managers will be promulgated and task
      COTRs will be shown how to verify compliance.

96.   Observation: The draft user manual dated 7/3/97 was given a
      perfunctory review. There are several areas noted in which
      improvements could be made: Cohesiveness of the document;
      Glossary of Terms; Reflection of the actual functionality in
      the working environment; Reflection of the modules in actual
      use; Financial Terminology. These comments are in addition
      to the Collection System Users Guide Review Report provided
      by the Billing and Collections Branch to the system
      developers which states that the application is not in
      compliance with OMB Circular A-127. [Low]

      Recommendation: A re-write of the user manual should be
      performed, if the application is to be retained to take into
      account the above items.

      OMD/WTB Response: New manuals and training guides will be
      prepared for the new System.

97.   Observation: All contract programming staff interviewed were
      new (≤ 3 months) to the Collections System project. This
                                54
      lack of corporate history can be overcome through effective
      management of the project. [Low]

      Recommendation: The Commission take steps (e.g., establish
      key personnel classifications) to ensure that changes to the
      staff be in small increments allowing for the transfer of
      corporate knowledge.

      OMD/WTB Response: Concur, the ITC accepts this
      recommendation and will pursue with Acquisitions staff the
      development of appropriate contract language to encourage
      the contractor firm to work towards this goal.

      Employee retention will be an issue for the new system as
      well, particularly since only Civil Service temporary
      appointments are available.

98.   Observation: The schedules that were identified for
      enhancements or development did not reflect any reviews or
      acceptance testing. (SDLC) [Low]

      Recommendation: Schedules should be developed to include
      developmental lifecycle concepts of formal reviews.

      OMD/WTB Response: Concur, current and future tasks will
      include schedules to include developmental lifecycle
      concepts of formal reviews.

      The SDLC under development will provide for and define the
      needed review phases and efforts. Responsibilities for
      directing and participating in these efforts will also be
      defined.

99.   Observation: Formal acceptance criteria could not be
      identified. (SDLC) [Low]

      Recommendation: Formal acceptance criteria should be
      developed for each task. Without formal acceptance criteria
      the developer has little or no direction as it relates to
      the end product.

      OMD/WTB Response: Concur, over the past year the Collection
      Team has implemented formal acceptance criteria and
      procedures for software in-products. Under the current
      Collection System and RAMIS, acceptance testing criteria
      will be included in the Project Test Plan.

      The ITC is examining alternatives that might improve the
      acceptance process by employing a separate contractor to
      develop acceptance criteria, develop test data and test
      plans, and to participate along with FCC staff in the
      acceptance testing process.
                                55
100. Observation: Of the weekly and monthly status reports
     provided, there does not seem to be a logical progression
     and resolution of tasks as they are assigned or discussed.
     Items which are scheduled for the next reporting period are
     not always addressed as to their status in the next
     reporting period. (PI) [Low]

     Recommendation: In presenting the status reports, The
     contractor should be directed to indicate the resolution of
     the items indicated as planned to be worked on during the
     reporting period at hand.

     OMD/WTB Response: Concur, over the past year the status
     reports, provided to the COTR include resolution of the
     items indicated as planned to be worked on during the
     reporting period at hand.

     The ITC also accepts this recommendation. This subject will
     be discussed at the monthly COTR meetings and task COTRs
     will be encouraged to require their contractors to comply.

101. Observation: Vague narrative was contained in a monthly
     status report wherein the Projected Completion Date was
     stated as indefinite. [Low]

     Recommendation: The Commission should direct Collection
     System contractor's to include only specific language in
     official documents.

     OMD/WTB Response: Concur, the ITC accepts this
     recommendation as it applies to all PSC work. This subject
     will be discussed at the monthly COTR meetings and task
     COTRs will be encouraged to require their contractors to
     comply.

102. Observation: There is no standardized header format and no
     overall standardized format for all C programs and shell
     scripts reviewed. [Low]

     Recommendation: Establish a standardized header format for
     all C programs and shell scripts.

     OMD/WTB Response: Concur, Changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

103. Observation: There are no comments written within the code
     for C programs and shell scripts. Functions are not
                               56
     identified or expressed in plain language.   [Low]

     Recommendation: Include comments in the code that identify
     the individual functions in plain language, and comments
     that describe what function the code is executing.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

104. Observation: There are no comments in the header to describe
     the code nor identify for C programs and shell scripts
     modifications to the code as to who made the modification
     and when. [Low]

     Recommendation: Develop and implement a standardized header
     format for C programs and shell scripts that will include
     comments in the header to describe the code, and identify
     modifications to the code as to who made the modification
     and when.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

105. Observation: Functions have no headers, no comments, or
     underlying behavior statements to assist in the maintenance
     of the code for C programs and shell scripts. [Low]

     Recommendation: Develop and implement a standardized header
     format that will include headers, comments in the header,
     and underlying behavior statements to assist in the
     maintenance of the code.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

106. Observation: There are no variable or constant declaration
     statements in the C programs or shell scripts. [Low]

     Recommendation: All programs contain sufficient statements
     and/or comments as to how variables and constants are being
                               57
     used throughout the code for Powerbuilder programs.

     OMD/WTB Response: Concur, the ITC accepts this
     recommendation. Changes in ITC contracts for Sybase,
     PowerBuilder and web support staff now being made will
     permit these contractors to work with FCC staff to develop
     programming standards for the basic languages in use at the
     FCC. These standards will be promulgated and their use by
     PSC staff verified.

107. Observation: A standardized naming convention is undefined
     for C programs and shell scripts. [Low]

     Recommendation: Establish a standard naming convention that
     all C programs and shell scripts will be drafted by.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

108. Observation: There is no standardized header format and no
     overall standardized format for all Powerbuilder programs
     and scripts reviewed. [Low]

     Recommendation: Develop and implement one overall standard
     format and a standardized header format and create all
     Powerbuilder programs and scripts in accordance with the
     agreed upon formats.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

109. Observation: There are no comments in the header to describe
     the code and identify modifications to the code as to who
     made the modification and when for the Powerbuilder
     programs. [Low]

     Recommendation: Develop and implement a standardized header
     format that will include comments in the header to describe
     the code, and identify modifications to the code as to who
     made the modification and when for the Powerbuilder
     programs.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
                               58
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

110. Observation: There are no comments written within the code
     for Powerbuilder programs. Functions are not identified or
     expressed in plain language. [Low]

     Recommendation: Include comments in the code that identify
     the individual functions in plain language, and comments
     that describe what function the code is executing for
     Powerbuilder programs.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

111. Observation: Functions have no header, no comments, or
     underlying behavior statements to assist in the maintenance
     of the code for Powerbuilder programs. [Low]

     Recommendation: Develop and implement a standardized header
     format that will include headers, comments in the header,
     and underlying behavior statements to assist in the
     maintenance of the code for Powerbuilder programs.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

112. Observation: There are no variable or constant declaration
     statements in the programs or scripts for Powerbuilder.
     [Low]

     Recommendation: All Powerbuilder programs contain sufficient
     statements and/or comments as to how variables and constants
     are being used throughout the code.

     OMD/WTB Response: Concur, the ITC accepts this
     recommendation. Changes in ITC contracts for Sybase,
     PowerBuilder and web support staff now being made will
     permit these contractors to work with FCC staff to develop
     programming standards for the basic languages in use at the
     FCC. These standards will be promulgated and their use by
     PSC staff verified.
                               59
113. Observation: A standardized naming convention for
     Powerbuilder programs is undefined. [Low]

     Recommendation: Establish a standard naming convention that
     all Powerbuilder programs and scripts will be drafted by.
     Include the identification of the naming convention in the
     Powerbuilder program or script.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified. RAMIS will establish a standard
     naming convention that all Powerbuilder programs and scripts
     will be drafted by. Include the identification of the
     naming convention in the Powerbuilder program or script.

114. Observation: Blocks of code exist that contain no comments
     as to their function, no headers, no naming convention, no
     declaration statements, or statements that assist in the
     maintenance of the code for Powerbuilder programs. [Low]

     Recommendation: Develop and implement one overall standard
     format and a standardized header format and create all
     Powerbuilder programs and scripts in accordance with the
     agreed upon formats. Include comments in the code that
     identify the individual functions in plain language, and
     comments that describe what function the code is executing.
     Establish a standard naming convention that all programs and
     scripts will be drafted by. Include the identification of
     the naming convention in the program or script.

     OMD/WTB Response: Concur, changes in ITC contracts for
     Sybase, PowerBuilder and web support staff now being made
     will permit these contractors to work with FCC staff to
     develop programming standards for the basic languages in use
     at the FCC. These standards will be promulgated and their
     use by PSC staff verified.

Process Improvement Matters

During the review, several areas were noted in which the
processes, if engineered in a different manner, could result in
more efficient and less costly operations for the Commission.
When identifying areas for process improvement, the ideal basis
is to concentrate on single sources of information, singles
sources of input, and single sources of processing. So as not to
cause redundancy, inefficiency, and result in more costs to the
entities involved.

                               60
115. Observation: During the review of functionality requirements
     and system requirements, it was evident that not all users
     of the Collection System information had been involved
     during the design of the Collection System. In order to
     design effective accounting and management information
     systems, it is imperative that all users have input into the
     process in order for the system to become a functional
     system used throughout the Commission. (SDLC) [Low]

     Recommendation: Revise development procedures to ensure the
     opportunity for all users communities to be involved in the
     design and testing of the application.

     OMD/WTB Response: Concur, RAMIS will revise development
     procedures to ensure the opportunity for all users
     communities to be involved in the design and testing of the
     application. The Project Plan will include tasks for
     workflow analyses, data and reporting needs, and focus
     groups about the new system. The steering committees should
     consist of representatives from all of the Bureaus and
     Offices who are stakeholders.

116. Observation: While significant volumes of information on
     user requirements exist, there is no one cohesive user
     requirement document or formal procedures for tracking to
     ensure implementation or disposition of a user requirement.
     In addition, the user requirements were never turned into
     functional requirements and placed into more programmable
     requirements, resulting in the achievement of only 30% of
     the intended functionality. Without the documented user
     requirements and functional requirements, the business
     process improvements are never programmed and therefore the
     automation does not help make the processes more efficient.
     (SDLC) [Low]

     Recommendation: When undertaking development efforts, a full
     user requirements and functional requirements analysis
     should be performed in order to prepare the requirements
     analysis document from which the program plan maybe
     generated. In addition, a formal method for tracking the
     user requirements through to implementation or disposition
     should be implemented.

     OMD/WTB Response: Concur, the Project Manager recommends
     that, to the extent possible, all procedures and processes
     be changed to use the capabilities of the COTS package
     selected. The requirements analyses will provide the basis
     for developing the RFP, identifying BPR areas, developing
     the OCD tests, and developing the evaluation criteria.

117. Observation: The Collection System Wireless department users
     have a need for intraday information from Mellon Bank during
                               61
     auction programs. The requirements as defined require the
     use of another form (Form 159) to be input as wires and
     checks are received instead of using currently available
     technology. [Low]

     Recommendation: Require electronic intraday bank reporting
     be used with any Collection System put in place at the FCC.

     OMD/WTB Response: Concur, a requirement will be included in
     the RFP that either unique data records be imported while
     the system is in production or that remote entry be
     available.

118. Observation: At the time our review was completed, plans
     were being considered in which three separate data feeds
     would be required from Mellon bank. [Low]

     Recommendation: The Commission should recognize the risks
     associated with duplicate data feeds and consider
     eliminating this practice.

     OMD/WTB Response: Concur, this will be considered under the
     RAMIS "Requirements Analysis". Further, Nortridge (or other
     loan management system data) will be treated as a subsidiary
     ledger with daily, weekly and monthly updates to the central
     revenue system.

119. Observation: The Collection System requirements did not
     automate the information for returned checks (also known in
     the banking industry as returned items). [Low]

     Recommendation: Returned items information should be
     returned electronically from Mellon Bank in order to
     automatically populate the Collection System and take the
     automated appropriate actions as a result of the returned
     items.

     OMD/WTB Response: Concur, the new system will require that
     returned check data be included in the electronic feed from
     the servicing bank.

120. Observation: FCC has no common data dictionary for
     programming efforts. (PO) [Low]

     Recommendation: Develop a Commission-wide common data
     dictionary, which will allow for more efficient programming
     efforts and sharing on information among applications. This
     common data dictionary should also make use of standardized
     data elements, data fill, and data interoperability.

     OMD/WTB Response: Concur, RAMIS will develop a Commission-
     wide common data dictionary, which will allow for more
                               62
     efficient programming efforts and sharing on information
     among applications. This common data dictionary will also
     make use of standardized data elements, data fill, and data
     interoperability.

121. Observation: The developer has not adopted an engineering
     approach to developing software. (SDLC) [Low]

     Recommendation: The contractor should be directed to
     implement software development standards. In addition the
     contractor should train their developers on how to
     professionally develop software.

     OMD/WTB Response: Concur, over the past year the Collections
     Team programmers have implemented and followed software
     development standards. The programmers have been
     professionally developing software for the Collections
     System.

122. Observation: The contractor is not engineering this system.
     This results in the project having no characteristics of an
     engineering effort. The project has separated from the
     requirements and is moving forward reacting to the current
     issues. [Low]

     Recommendation: No new work requirements should be developed
     until an appropriate or formalized engineering structure is
     established.

     OMD/WTB Response: Concur, under RAMIS new work requirements
     will be developed following an established or formalized
     engineering structure.

123. Observation: The costs of the existing Collection System are
     far greater than the costs of a COTS package implementation.
     In addition, the existing Collection System contains less
     than 30% of the desired functionality whereas the COTS
     packages contain 80% to 90% of the desired functionality.
     (SDLC) [High]

     Recommendation: Abandon the in-house developed Collection
     System solution and migrate towards a COTS package.

     OMD/WTB Response: Concur, however, the current system must
     be maintained until a COTS solution is identified, tested
     and implemented.

Policy and Procedures Issues

These comments relate to specific instances in which adherence to
a specific policy was not followed or in which a specific manual
process is followed for which no formal documented policy exists.
                               63
124. Observation: Adherence to a System Development Life Cycle
     (SDLC) methodology from system design to system
     implementation was not apparent. Documents expected through
     the adherence to any type of SDLC were neither prepared nor
     readily available. Use of a SDLC methodology will help
     ensure the system is properly designed (whether Commercial
     Off the Shelf (COTS) or in-house developed (IHD)),
     documented, programmed, implemented, and users are properly
     trained. This also helps to ensure the system is
     maintainable with the minimum amount of resources. [Low]

     Recommendation: Whether contractor support or FCC personnel,
     use of a SDLC should be mandatory and measured to ensure a
     SDLC is being used.

     OMD/WTB Response: Concur, an FCC SDLC will be developed.

125. Observation: During the data integrity review, many
     transactions with payment type code >ZZZ= or >ZZZZ= were
     noted. No formal procedures for reclassifying these
     transactions to their appropriate payment type code exist.
     Without the proper payment type code classification, the
     correct service type has not been identified. [Low]

     Recommendation: Establish formal processing procedures for
     reclassifying AZZZ= and >ZZZZ= transactions to their
     appropriate payment type code.

     OMD/WTB Response: Concur, formal processing standards shall
     be developed by, or before, October 31, 1998.

126. Observation: The transmission between the FCC and Mellon
     Bank is over open and clear telephone lines without any
     encryption. [High]

     Recommendation: Implement encryption technology for the
     Mellon Bank transmission.

     OMD/WTB Response: Concur, the implement of encryption
     technology for the servicing bank transmission will be
     reviewed as part of RAMIS.

SDLC - Life Cycle Development Issues

OMB Guidance specifically recommends adherence to a System
Development Life Cycle methodology, whether for newly developed
or for the enhancements of existing applications. Specific
comments regarding the adherence to any SDLC methodology are
indicated to emphasize the importance of the need for adherence
to a SDLC. Without the use of and adherence to a SDLC
methodology, the end application may result in pieces which are
                               64
not easily maintainable, are costly to maintain, and which do not
function as desired by the

127. Observation: Throughout the evolution of the Collection
     System and the processes used by Mellon Bank, the Commission
     has failed to fully explore commercially available options.
     In addition, a feasibility analysis of available options has
     not been performed. [Low]

     Recommendation: A documented feasibility analysis should be
     performed any time a new system or application is being
     considered. The Commission should ensure that any
     methodology used to develop Commission information systems
     includes a requirement for conducting a feasibility
     analysis.

     OMD/WTB Response: Concur, the FCC has already decided to
     develop and implement a new system based upon a COTS
     package. Future information system enhancements will follow
     a SDLC which includes feasibility analyses.

128. Observation: The User Manual reads like an automated paper
     process. The Collection System did not automate or make
     more efficient the business processes, but instead placed
     those manual processes on the computer. [Low]

     Recommendation: The business processes for Money Collection
     should be reviewed and streamlined in order to make the
     process less time consuming, more accurate, and more
     efficient. Moving towards a more COTS-oriented package will
     not prove beneficial unless the business processes
     themselves are evaluated and improved.

     OMD/WTB Response: Concur, OMD will review the business
     processes for Money Collection. This review will be
     conducted in unison with the development of the new system.




                               65
F.   DETAILED RECOMMENDATIONS PHASE II

     The Ernst & Young results of the Phase II portion of the
review are encompassed in this detailed recommendations section.
Ernst & Young's complete report is included in its entirety as
Appendix A of this report.

     In summary, the E&Y report noted the FCC did not provide
source data for fifty-two (52) of the one-thousand six-hundred
ninety-five (1695) transactions selected. There were seven-
hundred eleven (711) instances in which the data contained in the
collections system differed from the source documents provided,
most of which related to discrepancies in non-monetary fields.
The differences include discrepancies in dates of payment
receipt, payor names and addresses, amounts, FCC fee control
numbers, FCC account numbers, payment type codes and payment
methods. Of the seven-hundred eleven (711) instances noted,
thirty-three (33) instances were sample items totaling
approximately $39 million related to discrepancies in monetary
amounts or instances where no check or wire slip could be located
to substantiate the transaction. One (1) item represented an
auction-related transaction where the discrepancy between the
bank wire and the Collection System extract totaled $87,435.

     In addition, the collections system allows transaction
information to be updated without necessarily creating and
retaining an audit trail. E&Y also noted a need to reconcile
information included in the data extract with amounts reflected
in the FCC general ledger, and to reconcile the total deposits
and disbursements in FCC cash accounts to such amounts as well.

     What isn't stated in the E&Y report is the elongated
duration of time incurred to obtain documents to support the
transactions. In addition, there is not a mention of the
significant analysis time spent to determine how to agree
documents, once obtained, to the transactions they are supposed
to represent. Both of these represent the need for extensive
improvement in the areas of record keeping and audit trails for
transactions recorded in the Collection System.

     Appendix A contains the detailed E&Y report as well as the
schedules supporting their report. E&Y also included, at the
request of FCC Management, recommendations on observations they
made during the course of the Agree-Upon Procedures. These are
also included in Appendix A.

OMD/WTB Response: Concur, a monthly proof of cash has been
implemented to assure that dollars are reconciled.

We agree to make improvements in record keeping and audit trails.



                               66
G.   OVERALL CONCLUSIONS

     The Commission's Collection System application does not meet
OMB guidance as it relates to segregation of duties,
accountability within the application, adequacy of preparedness
for contingency planning, and overall access controls. In
addition, after over five years of development effort the
Collection System provides less than 30% of desired
functionality. The data contained in the Collection System is
not fully supported for dates of the transaction, payor,
addresses, payment type codes, or other related fields. Amounts
are supported, except for the ten thousand (10,000+) plus
duplicated transactions contained in the database.

     Based on the above, the Team recommends an abandonment of
the existing Collection System development effort. Funds to be
used for development should be moved towards the selection and
implementation of a COTS package for processing incoming payments
to the FCC.

     Concurrent with abandonment of the existing system, overall
controls should be strengthened while moving towards the new
system. The Commission should: formalize the Systems Development
Life Cycle (SDLC) process; implement proper logical and physical
segregation of duties; implement proper security administration
of userids; establish formal roles and responsibilities;
establish logical segregation of developers from security and
application functions; and formalize the change management
process.




                               67
